<html>
<title> - THE PROMOTION AND ADVANCEMENT OF WOMEN IN SPORTS</title>
<body><pre>[Senate Hearing 109-532]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-532
 
            THE PROMOTION AND ADVANCEMENT OF WOMEN IN SPORTS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 1, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
27-823                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 1, 2006.................................     1
Statement of Senator Dorgan......................................    36
Statement of Senator Lautenberg..................................     3
Statement of Senator Smith.......................................     2
Statement of Senator Snowe.......................................     4
Statement of Senator Stevens.....................................     1

                               Witnesses

de Varona, Donna, U.S. Olympian and President, Women's Sports 
  Foundation.....................................................    12
    Prepared statement...........................................    15
Dawes, Dominique, U.S. Olympian and President, Women's Sports 
  Foundation.....................................................    19
    Prepared statement...........................................    21
Erickson, Tara, Head Women's Soccer Coach, University of Oregon..    41
    Prepared statement...........................................    43
Finch, Jennie, U.S. Olympian/Professional Softball Player........    25
    Prepared statement...........................................    26
Grant, Dr. Christine, Associate Professor, University of Iowa, 
  Department of Health and Sport Studies.........................    49
    Prepared statement...........................................    51
Mund, Lynette, Teacher/Head Girls Basketball Coach, West Fargo 
  High School....................................................    38
    Prepared statement...........................................    40
Richardson, Dorothy ``Dot'' G., M.D., U.S. Olympian and Vice 
  Chair, President's Council on Physical Fitness and Sports......     6
    Prepared statement...........................................     8
Reddick, Catherine ``Cat,'' U.S. Olympian........................    28
Sweet, Judith M., Senior Vice President, Championships and 
  Education Services, National Collegiate Athletic Association...    44
    Prepared statement...........................................    46

                                Appendix

Cantwell, Hon. Maria, U.S. Senator from Washington, prepared 
  statement......................................................    57
Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    57


            THE PROMOTION AND ADVANCEMENT OF WOMEN IN SPORTS

                              ----------                              


                      WEDNESDAY, FEBRUARY 1, 2006

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room SH-216, Hart Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. I'm delighted to see so many of you here, and 
I know many of you have traveled a long distance to get here, 
so we thank you for coming today. I especially want to welcome 
back my great friend Donna de Varona. Takes you back a lot of 
years, doesn't it, Donna----
    Ms. de Varona. It does.
    The Chairman.--to the days that----
    Ms. de Varona. I don't want to say how many.
    The Chairman. We were working on the Olympic Sports Act, 
and Donna was the assistant to the former chair, Chairman 
Warren Magnuson, at that time.
    Ms. de Varona. Right.
    The Chairman. And you've served in many leadership and 
advisory roles, including our membership in President Ford's 
Commission on Olympic Sports. Donna has to be blamed for my 
involvement in this, because she just kept after me to keep 
working on it.
    But we want to continue to hold these hearings to make sure 
that we focus on the need to promote and advance the 
participation of women in sports, and we want to assure that 
Americans have a chance to understand the historic strides that 
have been made and the challenges that still face female 
athletes in athletic programs not only in schools and 
universities, but in professional sports.
    This is the 20th Annual National Girls and Women in Sports 
Day. We come together to recognize the achievement of women in 
sports, the positive influences of sports participation on our 
American women, and the continuing struggle for equality and 
opportunity for women in sports.
    It has been my privilege and honor to be able to work with 
all of you, to really believe in equality in sports. As I've 
told many people many times, as a father of three daughters, I 
remember so well the day when I was a coach of a little league. 
Donna knows this story. My girls practiced with the young boys 
in getting ready for the team activities. But, when it came 
time to pick the team, I had to tell my girls that they 
couldn't play. And one of my daughters said, ``Sue them, 
Daddy.''
    [Laughter.]
    The Chairman. And I said, ``Look, I don't have time to be a 
little-league coach and to file lawsuits and to earn enough 
money to feed all you guys, so that'll have to wait.'' But when 
we got here, I was pleased to join Birch Bayh, who I consider 
to be as much involved as I've been over the years. And since 
that time, we've had great accomplishment by our female 
athletes in the United States, great strides in athletics, 
including Sarah Korad, the first female winter athlete to ever 
qualify for two sports in the same Olympic Games, including 
biathlon and cross-country skiing.
    So, we have a lot of interest in what you do, and I do 
commend the Administration's support of physical-fitness 
programs to address the growing obesity rate and the sedentary 
lifestyle of men and women in this country. But I am also 
concerned, however, about the future of Title IX. And I hope 
that you will keep active to make certain people understand 
what would happen if we would reverse the decades of progress 
that have been made since Title IX's inception in 1972. Women's 
participation in athletics has increased 400 percent in the 
college level, and 800 percent in high schools. Many of you 
here are pioneers of this effort, and I'm glad to have an 
opportunity to have you come back together and meet with us.
    I see Billie Jean's arrived now. She was one of the 
original ones.
    [Applause.]
    The Chairman. Benita Fitzgerald Mosley is somewhere here. 
There you are. Thank you.
    [Applause.]
    The Chairman. I will quit reminiscing and yield to you, my 
friend.

              STATEMENT OF HON. GORDON H. SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Coach Stevens.
    [Laughter.]
    Senator Smith. I've always called him ``Chairman,'' but now 
it's ``Coach,'' too. So, it's good of you, sir, to hold this 
hearing, particularly on the 20th anniversary of the National 
Girls and Women in Sports Day, something we can all celebrate.
    I want to especially welcome Coach Tara Erickson, who has 
made the trip from my home State of Oregon to testify today. 
She served as the head coach of women's soccer teams at two of 
Oregon's great universities, Portland State and currently the 
University of Oregon. I'm proud of her example and the good 
that she does for the young women of my State and for these 
universities. In fact, the University of Portland, unrelated to 
those two schools, is currently the national champion in the 
Nation, and we are very proud of them, also proud of Nike, who 
has helped to sponsor many of today's activities. They are 
located in Oregon, and they have done a great deal to advance 
sports, at all levels, for girls and women.
    There's no question that sports do tremendous things for 
young people. The social benefits and the psychological impacts 
they have on building self esteem and helping young people to 
learn self-discipline, time management, goal-setting, 
decisionmaking, problem-solving, team-building, and even being 
exposed to great mentors and positive role models, the list 
goes on and on, and the skills that young women, in particular, 
can learn in playing and competing in athletics are clearly 
transferrable to real-world successes. Approximately 80 percent 
of women considered as key leaders in Fortune 500 companies 
participated actively in childhood sports.
    So, we are focusing today on one, a key ingredient to 
helping women to find their full equal place in our society. 
And I want to express my own pride in my daughter, Brittany, 
who recently finished her reign as the queen of the Pendleton 
Round-up. She's a superb equestrian and very gifted 
athletically in making horses do what I never knew they could 
do and respond to her athleticism.
    For all these reasons, Mr. Chairman, thank you for 
scheduling this hearing so we can highlight this very important 
aspect of the life of girls, young women, and women in the 
United States.
    The Chairman. Thank you.
    Senator Lautenberg, do you have an opening statement?
    Senator Lautenberg. I do.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. I'm not--you're not the only one with 
three daughters. I have three daughters, also.
    The Chairman. You have three now.
    Senator Lautenberg. I have three.
    The Chairman. OK.
    Senator Lautenberg. Yes. And then, finally, a little boy 
came along, and when he saw how athletic his sisters were, that 
induced him to pep up, shape up, and get up there and out 
there. He's still a competitive skier, my son, and does it 
across the world. But now he's got a couple of grandchildren, 
and I'd like him to stop that silly stuff.
    But my three daughters are all active in sports, and I've 
got six granddaughters. They're all little kids. The oldest is 
11. And they're into all kinds of sports activities. It's very 
healthy for the family, I think, as something that brings them 
all together and induces a good lifestyle. My oldest daughter, 
Ellen, is a black belt in karate. My second daughter, Nan, was 
a competitive skier and ranked in New England tennis. My third 
daughter, who's the smallest of the three girls, was captain of 
the women's ski team at Colgate and took them to a national 
championship. She's also run the marathon, and has two girls. 
And all three are excellent skiers. That was a passion of mine. 
And people look at me, and they say, ``Do you still ski?'' 
``Yes, I still ski. Why? Is there something that I shouldn't be 
doing?'' I do it, and I enjoy it. And my kids' participation in 
sports has increased their physical strength, their stamina, 
sharpened, I think, their mental focus, improved their self-
confidence. And have--we share some very good times in the 
outdoors and doing things and going places to do those. So--
it's hard to get to ski together anymore, because I'm here and 
they're in different parts of the country.
    More than 30 years ago, Congress recognized that women 
benefit from sports just as much as men do. Title IX became the 
law of the land, opening the door of opportunity for women who 
want to participate in sports. And since then we've learned 
even more about the positive benefits that are derived from 
sports.
    Women who participate in sports are at less risk for 
diseases and health problems that disproportionally affect 
women, like osteoporosis or even breast cancer. In addition, 
sports provide a safe and healthy alternative to drugs, to 
alcohol, tobacco, and often antisocial behavior. And today, as 
we mark the 20th anniversary of National Girls and Women in 
Sports Day, I believe that we've got to look for other 
opportunities to encourage female participation in sports.
    And I'll close by saying that a young woman from New 
Jersey--now, our highest mountain in New Jersey, it's--you 
don't need climbers and you don't need oxygen to get up the 800 
feet of our highest mountain--but was an Olympic gold medal 
winner in freestyle skiing. So, we like sports. We like the 
people who participate in sports. And Donna de Varona, who I 
know well, and we've skied together, and I'm pleased to welcome 
all of you and--march on. We need you.
    Thank you.
    The Chairman. Thank you very much.
    And I congratulate you all on that ad in Roll Call this 
morning. Mia Hamm. Great ad. More people should learn. 
Attractive women and few words makes a good ad.
    [Laughter.]
    The Chairman. Our first panel is----
    Senator Snowe. Mr. Chairman?
    The Chairman.--Dr. Dorothy----
    Oh, pardon me. I did not see you. I apologize.
    Senator Snowe. I just arrived, Mr. Chairman.
    The Chairman. Do you have a statement, Senator?
    Senator Snowe. Yes, I do, just very briefly. I don't want 
to hold you up.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. I just want to take this opportunity, as 
well, to thank you, Mr. Chairman, on behalf of millions of 
girls and women across this country who have participated in 
organized athletic competitions because of your leadership and 
being the father of Title IX with the original enactment of 
that legislation back in 1972. I've been a long-time supporter 
and stalwart of Title IX. In fact, I introduced the first 
resolution in the House of Representatives for National Women 
and Girls Sports Day. In fact, I have a pen hanging on the wall 
that was used by President Reagan to sign that first measure 
honoring women and girls in sports. And I worked with Donna de 
Varona, when she was chair of the Women's Sports Foundation, 
who's provided exceptional leadership on behalf of women and 
girls all across this country. And I thank the Women's Sports 
Foundation for doing so much for the leadership and the 
guidance and the commitment to ensuring that we provide the 
equal opportunities for athletics, organized sports, in our 
educational systems across this country.
    There's no question about the value of this 34-year-old 
landmark civil-rights legislation. It is so critical in 
achieving equal opportunities for girls in our school systems, 
at all levels, and it's absolutely vital that we continue to 
uphold the value and the commitment to this law.
    When you think about the endless benefits that it has 
ultimately provided girls and women--for example, 80 percent of 
business women in this country today participated in sports, 
growing up--we know what it can do to impact the economic, as 
well as the well-being of young women all across this country. 
And what we need to do here, in the Senate, in the Congress, 
overall, is to make sure that we reject any proposal that 
unravels or slows or reverses or undermines the objectives of 
Title IX and the educational opportunities and all of the 
benefits that, ultimately, it provides for girls and women 
across this country.
    For example, when you think about the fact that it was one 
in 27 girls in high school that were participating in sports 
before Title IX, now it's one in three, which is an 800 percent 
increase, there can't be any question about what it ultimately 
can do to contribute to the value and the benefit of the 
possibilities and opportunities that it provides young women 
throughout their lives. And personified by the Olympics and 
what you have all accomplished, achieving the pinnacle of 
success, I think, exemplifies the importance and the 
significance of Title IX, what it's done.
    So, we have to make sure, I think, in the final analysis, 
that we strengthen, actually, the enforcement of Title IX. 
Frankly, I'm concerned about the idea of allowing e-mail 
surveys as a way to ensure, you know, the sufficiency of 
compliance. It does not. I think we understand that. And I 
think we have to express that forcefully. And I want to thank 
the leadership of Senator Smith and Chairman Stevens in that 
regard. And I think we have to continue to do all that we can 
not to roll back the successes, but also understanding that we 
have to do more.
    And I want to thank each and every one of you for being the 
role models and the inspiration that is worth its weight in 
gold to girls and women across this country. So, thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much. I would be remiss if I 
didn't mention Carol White, who worked for me for years with 
this program and retired prematurely because of medical 
problems. She's doing very well, has her own horse farm and a 
daughter who's very much of an equestrian. And so, we've missed 
her, her leadership.
    Our first witness is Dr. Dorothy ``Dot'' Richardson, 
president of the Council--President's Council on Physical 
Fitness, and currently medical director at the National 
Training Center in Claremont, Florida, and two-time Olympic 
gold medalist.
    We're glad to have you with us. We'll listen to you first.

STATEMENT OF DOROTHY ``DOT'' G. RICHARDSON, M.D., U.S. OLYMPIAN 
  AND VICE CHAIR, PRESIDENT'S COUNCIL ON PHYSICAL FITNESS AND 
                             SPORTS

    Dr. Richardson. Thank you for having me. And good morning, 
Senators--also, staff and guests. Thank you for holding this 
very important hearing.
    My name is Dr. Dot Richardson. I am the NCAA Player of the 
Decade for the 1980s, four-time world champion, five-time Pan 
American, and two-time Olympic gold medalist in the sport of 
softball, fast-pitch softball. I'm also an orthopedic surgeon 
and I am Vice Chair of the President's Council on Physical 
Fitness and Sports. I'm here to testify about the importance of 
promoting and advancing opportunities for women in physical 
activity and sports.
    I bring you a warm greeting from Secretary Leavitt, of the 
U.S. Department of Health and Human Services.
    As you know, the President's Council on Physical Fitness 
and Sports is an advisory committee with HHS. We are 
celebrating its 50th-year anniversary this year. So, that's 
some exciting news there.
    But I feel very blessed to be an American, and I feel 
fortunate to serve on the Council under the fittest President 
in our Nation's history. President and Mrs. Bush are excellent 
role models in health and fitness for all Americans. President 
Bush says that better health is an individual responsibility 
and an important national goal.
    So, to fulfill this ``HealthierUS'' initiative, there have 
been four important standards set that can change our lives. 
They are to be more physically active, for boys and girls, men 
and women, to eat a nutritious diet, to do preventive 
screening, and to avoid risky behavior.
    But I'm here to share a story also, that, when I was a 
little girl, I knew that God had given me a gift. And the gift 
was in athletics. I knew it was a gift, because I loved it so 
much. I mean, running, jumping, playing catch, shooting hoops, 
I just loved it. And I felt so alive doing it. But when I grew 
up, in the 1960s, it wasn't the thing for little girls to be 
athletic. In fact, there were a lot of negative things being 
said, and it was made perfectly clear that girls were not 
supposed to be athletic, because girls were not allowed to play 
organized sports, as you had mentioned earlier.
    But I would go to bed at night, and I would ask God, ``Why 
did you give me this talent if I can't use it?'' And I learned, 
very young, as a little girl, that the most frustrating thing 
in life is to have been given a talent and not have the 
opportunity to express it. And this, why? Because I was born a 
girl.
    You know, it's one thing to say, ``You can't throw very 
well,'' or, ``You can't run fast,'' or, ``You can't pitch,'' or 
whatever. I can work on that. But to say, ``You can't play 
sports because you're a girl ''--that was hard to deal with.
    And then one day I'm pitching to my brother before a 
little-league baseball game, and this coach comes running over 
to me and says, ``Wow, you've got a great arm. How would you 
like to play on my little-league baseball team? '' ``Yes. My 
prayers are going to be answered.'' But, in the same breath, he 
said, ``Well, we'll have to cut your hair short, and we're 
going to give you a boy's name. We're going to call you `Bob.' 
'' In order for me to play a sport I loved, I would have had to 
disguise myself as a boy.
    That very day, I walked over to a bigger field, playing 
baseball catch. That was all I knew. And another coach comes 
running out and asked if I had ever played softball. And, of 
course, I hadn't. But, after a few ground balls, I was asked to 
play on this women's fast-pitch softball team. I became the 
youngest girl ever to play women's major ball. I think about 
those women back then that were playing this sport when the 
rest of the world said, ``You're not supposed to be good,'' 
that ``girls are not supposed to be athletic, and, oh my gosh, 
definitely you can't be better than a boy.'' What a message.
    Well, for me, I continued to believe in the dream. And when 
you look at the 1996 Olympics, when we were there in the gold 
medal game, winning the gold medal, there was one thing that I 
remember more than anything. After we had captured the gold 
medal, I see my nephew and niece running down to the railing 
and reaching over to try and reach into the field to share in 
that moment. It was an athletic moment. It didn't matter what 
gender. There, a boy and a girl, standing side by side, living 
in that moment. And everyone said the 1996 Olympics represented 
the results of Title IX, but I want to believe that at the 1996 
Olympics, with the success of the women teams, to me, the world 
fell in love with recognizing the talents of athletics, and 
appreciating it, no matter what gender.
    That little girl, my niece, got a full scholarship and just 
graduated from law school with her MBA and her JD.
    Do sports affect lives? They do. I believe this so much 
that even this year I founded and developed, and we're 
launching, a new pro tour, pro fast-pitch extreme, in the sport 
of fast-pitch softball. The goal is to bring amateurs and 
professionals together to meet and compete. This, I believe, is 
what a professional level should do, and that women need more 
professional levels that succeed. But to impact young girls--
boys have it easy. In sports, they have it easy. They're 
strongly supported, and they can turn on TV and they can see 
their superstars in any sport they want. But girls don't have 
that luxury. Yet. And that's one goal I want to be able to 
achieve, to give back, to let all young girls know they can 
believe in their dreams and the gifts they have in athletics 
are meant to be shared. And we can make a difference doing 
that.
    You know, after the 1996 Olympics, I received letters from 
my friends who quit athletics in high school. They quit because 
of the stereotypes and the negative things that were said. And 
they had trouble getting dates. Well, after the 1996 Olympics, 
I got letters from all of them, and they said, ``I was good, 
wasn't I? Why did I listen to the negative things that everyone 
was saying? Why didn't I follow my heart? ''
    I mean, let us not forget the differences that we all have, 
and embrace that. And if the love is in sport and physical 
activity, let's seize the moment and support it, because it 
makes a difference in the life of a girl, just as it does in a 
boy.
    Well, the involvement of girls in sports, I believe, 
largely is influenced by our attitudes and our behaviors and by 
receiving support. Girls need to have more opportunities to 
participate. It changes their lives, not only just physically, 
as we talked about, but mentally. You saw the ad that you 
pointed out--confidence, self esteem, setting goals, reaching 
hard to achieve those goals, not being afraid to work hard to 
live your dream. All of this comes, I believe, through physical 
activity in sport.
    There are numerous initiatives and programs that are out 
there, and I just want to recognize some from the Department of 
Health and Human Services that address women's health issues, 
particularly with members of the Women's Health Coordinating 
Committee. For example, the results of the Health and Growth 
Study that was funded by the National Heart, Lung, and Blood 
Institute of the National Institutes of Health showed that a 
decline in physical activity does play a role in weight gain in 
young girls. In girls that don't participate in sport, when 
they get into their teens, forget it--I mean, from physical 
activity and mental concerns. But, also, there's a program, We 
Can!--Ways to Enhance Children's Activity and Nutrition. And 
the Center for Disease Prevention and Control is partnering 
with HHS Office of Women's Health and the National Osteoporosis 
Foundation and the National Bone Health Campaign. This program 
uses a social marketing approach to promote optimal bone health 
among girls 9 through 12 years of age in an effort to reduce 
their risk of osteoporosis. Also, the HHS Office on Women's 
Health has also developed GirlsHealth.gov website.
    And, finally, I just want to mention the President's 
challenge. If you all could go to www.PresidentsChallenge.org, 
its initiatives by the President's Council on Physical Fitness 
and Sports offer a tool to all Americans, including women and 
girls, to start moving, today and now.
    So, Senators, we challenge you and your colleagues, staff, 
friends, and families to participate in the President's 
challenge and get involved with the Presidential Active 
Lifestyle Award, which is an activity that, on 5 or more days a 
week for just 6 weeks, with 30 minutes of activity, you can 
achieve this award. For those that are more champions, there's 
a President's Champions Award with a gold, silver, and bronze 
medal.
    So, I hope, today, that you take the challenge for your 
support for women and girls, but also for all of us to be more 
physically active and tell--talk about it in your speeches and 
press conferences. This is the 50th year for the President's 
Council on Physical Fitness and Sports. And I believe that, 
together, step by step and day by day, we can build a healthier 
U.S. for Americans of all ages, backgrounds, and abilities, 
men, women, and boys and girls, alike.
    Thank you very much for this opportunity and for your 
support of girls and women in sports. Thank you.
    [The prepared statement of Dr. Richardson follows:]

Prepared Statement of Dorothy ``Dot'' G. Richardson, M.D., Vice Chair, 
           President's Council on Physical Fitness and Sports

    Good morning Senator Stevens, Senator Inouye, Committee Members, 
staff and guests. Thank you for holding this very important hearing.
    My name is Dot Richardson, and I'm here today as Vice Chair of the 
President's Council on Physical Fitness and Sports to testify about the 
importance of promoting and advancing opportunities for women in 
physical activity and sports. I bring you warm greetings from Secretary 
Michael O. Leavitt of the U.S. Department of Health and Human Services 
(HHS). The President's Council on Physical Fitness and Sports, an 
advisory committee within HHS, is celebrating its 50th anniversary in 
2006. The observance of the Council's first fifty years (1956-2006) 
coincides with the tenth anniversary of the Surgeon General's landmark 
report on physical activity (1996), Physical Activity and Health. Given 
the rates of overweight and obesity that continue to plague the Nation, 
2006 presents an opportune time to bring more visibility to the 
importance of physical activity, fitness and sports for improving and 
maintaining health.
    I feel fortunate to be serving on the Council under the fittest 
president in our Nation's history. President and Mrs. Bush are 
excellent role models in health and fitness for all Americans. Despite 
their busy schedules, they make physical activity a regular part of 
their daily lives. President Bush says, ``Better health is an 
individual responsibility and an important national goal.''
    To fulfill the vision of a ``HealthierUS,'' the President, the 
Secretary and the members of the President's Council on Physical 
Fitness and Sports are asking each American to adopt four simple 
behaviors than can change your life: be physically active every day; 
eat a nutritious diet; get preventive screenings; and make healthy 
choices.
    Our Nation's poor eating habits and sedentary lifestyles are 
killing thousands of Americans every day. The cost of obesity and Type 
2 diabetes combined is up to $250 billion a year. If there were a 
medication on the market that conveyed all of the health benefits of 
active living, everyone would take it. To all Americans of all ages and 
abilities, men and women, boys and girls alike, we say, ``Daily 
physical activity is a magic pill.''
    I'm here today to tell you the story of a young girl in the late 
1960s and early 1970s. She played outdoors with her brothers; she loved 
to run after rabbits and race trucks, to climb trees, to catch a ball. 
She shared a frustration with many girls her age: she loved sports but 
couldn't find a girls' team anywhere. For a young girl at that time, 
the only way you could play is if a boys' team let you.
    One day, that young girl was playing catch with her brother--
helping him warm up before he went to play a Little League baseball 
game. Her brother's coach saw her playing and asked if she wanted to 
play on the team. But if she did, he said, she'd have to cut her hair 
short, and he'd call her ``Bob.''
    I was that little girl, Senators. But I wasn't brought up to be a 
covert operative. So, well-brought up young lady that I was, I smiled 
and politely declined, then walked over to a nearby field, where there 
was a team of women practicing softball. The coach noticed me and let 
me take a few ground balls. I'd never heard of women's fast-pitch 
softball, but at the age of ten, I became the youngest member of that 
team.
    I was one of the lucky girls back then, able to live my sports 
dream during my growing-up years. Today, an American girl doesn't have 
to search as long and hard as I did to belong to a team. There are many 
chances for girls to play on an organized girls' softball team, from 
church leagues to recreational leagues. During all my years playing 
women's softball, I never dreamed I'd experience Olympic glory. But in 
the summer of 1996, I had the privilege of playing on the team that won 
a gold medal in women's softball.
    That same year, 1996, the Surgeon General published the landmark 
report Physical Activity and Health. That report clearly documented 
that regular, preferably daily, routine of at least 30 to 60 minutes of 
brisk walking, bicycling, or even dancing will reduce the risks of 
developing or dying from cardiovascular disease, breast and colon 
cancer, and Type 2 diabetes and will reduce symptoms of anxiety and 
depression; help control weight; and help build and maintain healthy 
bones, muscles and joints. The 30 to 60 minutes doesn't have to be done 
at one time--it can be broken up into smaller increments.
    On the heels of the Surgeon General's report on physical activity 
and health, the President's Council on Physical Fitness and Sports 
published its own report, ``Physical Activity and Sport in the Lives of 
Girls: Physical and Mental Health Dimensions from an Interdisciplinary 
Approach.'' Today I want to paraphrase some of the highlights of that 
landmark report and update you on the current work of the U.S. 
Department of Health and Human Services in addressing physical activity 
for women and girls in America. Physical activity and sports 
involvement are important developmental opportunities for both boys and 
girls. Contributions include increased strength and power, better 
cardiovascular functioning, enhanced immune system responses, 
opportunities to develop moral reasoning, positive self-concepts and 
social interaction skills. There are however unique dimensions of the 
sport experience for girls in terms of physiological and psychological/
emotional development and the challenges, which sometimes exist between 
socially, influenced expectations.
    All children should participate in regular physical activity and 
sport experiences, especially in quality, adult supervised activities 
at home, at school and in after-school programs. A wide range of 
activities should be available, including both individual and group 
experiences and cooperative vs. competitive ones. Moderate and regular 
physical activity can promote psychological and emotional well being, 
including reduced depression. Equal and safe opportunities and 
environments should be provided for both boys and girls to participate 
in a full range of physical fitness and sport activities.
    Maintaining physical fitness and developing good fundamental 
movement skills by actively participating in daily activity contributes 
to happier and healthier lives by facilitating both physical and 
emotional health.
    Involvement in sport and physical activity contributes to the 
physical movement capacities of girls, the health status of their 
bodies, the values and ethical behaviors they develop and their 
personal development of a unique identity. Childhood activities related 
to sport and physical activity should include opportunities for girls 
to develop fundamental fitness, and to acquire the motor skills 
necessary for life long learning and leisure time activities and to 
facilitate good immune system functioning, build physical fitness, and 
maintain appropriate body weight.
    One of the most basic benefits of physical activity is the 
development of motor skills. Providing these opportunities to learn 
these skills is important for all people, including all girls and 
women.
    All areas of fitness are affected by regular physical activity but 
three that seem to be especially impacted by regular physical activity 
are muscular fitness, cardiovascular fitness (aerobic fitness) and 
anaerobic power. For most girls, muscular fitness increases until about 
age 14, but for sedentary girls it may slow more rapidly or even 
decrease (Blimkie, 1989). However, systematic physical activity 
including both short term training programs (Sale, 1989) and regular 
physical activity programs can produce marked improvement in strength 
for girls.
    One of the primary advantages of active physical participation for 
children seems to be directly linked to lower body fat and a better 
ratio of lean to fat mass. Children with above average levels of body 
fat generally have higher total cholesterol, and LDL cholesterol and 
often-associated elevated blood pressure (Williams, et al., 1992). 
Elevated levels of cholesterol in children are very important because 
children who have higher levels of cholesterol are almost three times 
more likely than older children to have high cholesterol levels as 
adults (National Cholesterol Education Program, 1991). The best 
strategy for lowering cholesterol in children is a combination of 
physical activity and diet which may also lead to lowered blood 
pressure, and other benefits thought to be brought about because of 
decreased cardiac output, decreased peripheral resistance, and reduced 
risk of blood clotting (Blair, et al., 1996).
    Physical activity and sport experiences can also be beneficial in 
maintaining appropriate body weight, or the balance between energy 
expenditure and caloric intake (especially the relative proportion of 
fat intake in terms of the percent of total calories. The problem of 
juvenile obesity is twice as great today as it was in the 1960s (Blair 
et al., 1996), and a particular problem for juvenile girls. For most 
young girls, normal daily activity provides an adequate balance of 
intake and expenditures, but for females with weight problems, 
maintaining regular physical activity levels is an important adjunct in 
weight control because of its role in facilitating fat-free mass and 
promoting the loss of fat (Wells, 1991). It is also thought to be 
important in reducing the risk of non-insulin dependent diabetes, which 
is one of the ten most prevalent causes of death in the United States 
(Blair, et al., 1996).
    One major advantage of physical activity for girls is that it 
increases ``peak bone mass.'' Peak bone mass is the level of bone mass 
at its highest point--usually occurring in the teens or early 20s. High 
peak bone mass can be viewed much as a bank savings account where 
withdrawals can be made later in life when needed. The higher the peak 
mass, the less likely that losses later in life will result in low bone 
mass or osteoporosis.
    Extensive research has emerged to support the contention that 
regular physical activity (at a moderate level) facilitates the body's 
ability to fight infection (e.g., upper respiratory infection (Nieman, 
1994)) and disease through increased immune system function (Freedson & 
Bunker, 1997).
    The involvement of girls in sport is largely impacted by the 
attitudes of parents and other role models (teachers, family). If 
parents support their involvement and encourage it, girls can benefit 
in many positive ways from sport and physical activity. There appears 
to be a strong interaction between how girls perceive their success in 
sport, and how others influence that perception. During early years, 
both boys and girls are about equal in terms of physical skills and 
rely on adult comments (especially parents) to help them judge their 
competency until about age 10 (Weiss & Ebbeck, 1996). Most girls 
participate in sport to have fun, improve skills, be with friends and 
become physically fit while enjoying the challenges and being 
successful (Weiss & Petlichkoff, 1989). In particular, when motivation 
to participate in sport was examined, Gill (1992) found three different 
reasons: competitiveness, win orientation and goal orientation. Girls 
seem to be higher in goal orientation or the desire to achieve personal 
goals while boys seem to be more motivated by winning. Many girls 
prefer activities that allow them to work together to improve, or to 
function cooperatively to accomplish goals (Jaffee & Manzer, 1992), 
rather than competitive activities such as physical fitness testing 
(Wiese-Bjornstal, 1997). It is therefore important to structure daily 
physical activity experiences to provide motivation for children who 
have both goal and win orientations.
    During adolescence there appears to emerge a gender difference such 
that girls rely on adults and their own self-comparisons, while boys 
seem to rely more on competitive outcomes, their ability to learn new 
skills and their own egocentric judgments of physical competence (Weiss 
& Ebbeck, 1996). These differences suggest the important role of 
parents, teachers and coaches in influencing girls attitudes toward 
participation.
    Participation in sport and physical activity has a positive effect 
on emotional well-being. Children who are depressed or having emotional 
problems benefit from increased levels of physical activity (Biddle, 
1995), with benefits reported to lower levels of depression (Morgan, 
1994) and general anxiety (Landers & Petruzzello, 1994). The effects of 
participation in an active life style may have both a beneficial 
treatment effect, and also a palliative or buffering effect prior to 
any onset of emotional problems (Wiese-Bjornstal, examining the 
research literature regarding the influence of physical activity on 
depression and anxiety (Singer, 1992). Physical activity can help 
reduce anxiety, help decrease mild to moderate depression, help reduce 
anxiety, reduce various types of stress, and have beneficial emotional 
effects. In addition, regular physical activity and its body 
composition benefits may also result in increased energy and improved 
sleep patterns (Martinsen & Stephens, 1994) and a general feeling of 
self-accomplishment for sticking to goals and developing new skills 
(Koniak-Griffin). Sport and physical activity can provide a great venue 
for exploring strategies to resolve conflicts, act fairly, plan 
proactively, and to generally develop a moral code of behavior. 
Opportunities exist for children to experience their own decision-
making and to observe other role models such as parents, coaches and 
other athletes and to get feedback about their own ethical behaviors 
(Martens, 1993). There are many opportunities for good moral 
development through sport and physical activity, especially when these 
opportunities are provided under adult guidance and structured to 
support positive growth and avoid the potential negative impact of 
anti-social behaviors (cheating, aggression and intimidation) that 
accompany some inappropriately competitive activities (Gibbons, Ebbeck 
& Weiss, 1995). Sport can be a great avenue for developing more mature 
moral reasoning skills that are characterized by more assertion and 
less aggression, and more compliance with rules and fair play (Stephens 
& Bredemeier, 1996). Some children love low levels of competition while 
others are psychologically ready for higher levels of competition when 
they want to compare their skills with others and when they can 
understand the competitive process (Passer, 1988).
    The U.S. Department of Health and Human Services has several 
ongoing initiatives and programs to address women's health issues 
throughout its agencies, including the National Institutes of Health 
(NIH), the Centers for Disease Control and Prevention (CDC), and the 
Office of Women's Health (OWH) within the Office of the Assistant 
Secretary for Health. These agencies participate in the Women's Health 
Coordinating Committee as do the women's health components of many 
other HHS agencies. I want to share with you today a few notable HHS 
initiatives that concern physical activity and health for women and 
girls.
    The results of the Health and Growth Study, funded by the National 
Heart, Lung, and Blood Institute of the NIH, showed that a decline in 
physical activity plays key role in weight gain among adolescent girls. 
Girls who were inactive during adolescence gained an average of 10 to 
15 pounds more than active girls, according to results of the 10-year 
observational study of obesity. Total calorie intake increased only 
slightly and was not associated with the weight gains. These results 
show that a previously reported steep decline in physical activity 
among adolescent girls is directly associated with increased fatness 
and an increase of body mass index (BMI), a measure of body weight 
adjusted for height. The NHLBI has launched ``We Can!--Ways to Enhance 
Children's Activity and Nutrition''--a childhood obesity prevention 
program designed to encourage parents and children to adopt healthy 
eating habits, increase physical activity, and reduce leisure ``screen 
time''. More than 35 communities across the country are integrating 
``We Can!'' lessons into health programming for parents and kids.
    The CDC, the HHS Office Women's Health, and the National 
Osteoporosis Foundation (NOF) have partnered on an initiative, the 
National Bone Health Campaign (``Powerful Bones. Powerful 
Girls''<SUP>TM</SUP> ). This program uses a social marketing approach 
to promote optimal bone health among girls 9-12 years of age in an 
effort to reduce their risk of osteoporosis later in life. The 
campaign's purpose is to encourage girls to establish lifelong healthy 
habits, focusing on increased calcium consumption and weight-bearing 
physical activity to build and maintain strong bones. Parents and other 
adults close to girls play an important role by encouraging girls to 
take action. Resources for this campaign include a website for girls, 
and print materials, radio and print advertisements for girls and 
parents.
    The HHS Office on Women's Health has also developed the 
GirlsHealth.gov website, which promotes healthy, positive behaviors in 
girls between the ages of 10 and 16. The site gives girls reliable, 
useful information on the health issues they will face as they become 
young women, including physical activity and sports. The site offers 
tips on handling relationships with family and friends, at school and 
at home. It focuses on health topics that girls are concerned about and 
helps motivate them to choose healthy behaviors by using positive, 
supportive, and non-threatening messages.
    Finally, I want to tell you about the President's Challenge, the 
motivational awards program of the President's Council on Physical 
Fitness and Sports. As the Council members and I travel around the 
country, we want to do more than quote health statistics. We are 
offering a tool to get all Americans, including women and girls, to 
start moving today. That tool is the ``President's Challenge,'' a 
program to motivate everyone to start moving today and stay active for 
a lifetime.
    You, Senators, and your colleagues, staff, family and friends can 
participate in the Challenge by logging on to presidentschallenge.org 
and signing up to earn a Presidential Active Lifestyle Award (PALA) for 
activity on five or more days a week for six weeks (30 minutes for 
adults, 60 minutes a day for youth aged 6-17). For those who are 
already active, the Presidential Champions awards offer bronze, silver 
and gold medals for points earned through participating in one or more 
of over 100 activities.
    Every activity counts toward the awards--walking, climbing the 
stairs, raking leaves, digging in the garden, mopping the floor, 
biking, playing tag, dancing, jumping rope, sports--any physical 
activity! And you don't have to do it at one time--you can accumulate 
activities in smaller increments. Take the President's Challenge 
yourself and challenge your family to join you; challenge your 
constituents and staff to join you. Particularly, I call on you today 
to challenge the women in your life to start moving for health and 
well-being today--at home, at school, at work, at play and leisure, and 
in retirement communities and senior centers.
    Please, tell your constituents to ``Be physically active every 
day.'' Tell them in your speeches and press conferences--any time you 
speak about health. Please promote the active lifestyle, promote a 
HealthierUS. Together, step-by-step, day-by-day, we can build a 
healthier U.S. for Americans of all ages, backgrounds and abilities, 
men and women, boys and girls alike.
    Thank you for the opportunity to testify this morning. I would be 
happy to respond to questions.

    The Chairman. Thank you, Dr. Richardson.
    Next, Donna de Varona, two-time Olympic gold medalist, Emmy 
award-winning broadcaster, first president of the Women's 
Sports Foundation.

  STATEMENT OF DONNA de VARONA, U.S. OLYMPIAN AND PRESIDENT, 
                   WOMEN'S SPORTS FOUNDATION

    Ms. de Varona. Thank you, Senator--Coach----
    The Chairman. Yes.
    Ms. de Varona.--Senator Smith, Senator Snowe, and Senator 
Lautenberg. We've been to this place many times before. And I 
am thrilled that you've opened up the doors of Congress for us 
to come today to address women's sports and fitness.
    I think Dot's covered the area of fitness very well, but, 
to think about this, if we didn't have Title IX, we wouldn't 
have had women's softball in the Olympics, and we most likely 
would not have this leader sitting before us today who can 
inspire a nation about the importance of physical fitness in 
sport.
    What Dot wasn't able, or didn't have time, to tell you was 
that the perception of women in sport, what we do here 
translates around the world. I think the United States has set 
the agenda for international sport. And because the games were 
in Atlanta in 1996, we had the leverage to be able to get 
women's sports, team sports, on the calendar. Women's soccer 
was a first-time appearance in 1996 on the calendar. And then, 
of course, in 1999, our women's team filled the stadiums, from 
the Giants Stadium to the Rose Bowl, with fans, young fans, 
with a new sound in the stadium to enjoy and embrace women's 
sports.
    But Dot didn't tell you that the International Olympic 
Committee has voted women's softball off the Olympic program, 
for a lot of the same reasons that we are struggling with 
today, for the perception that women aren't as interested in 
softball as they are in other things and that the resources 
should not be spent that way. Hopefully, Jenny Finch and a lot 
of the players and the head of the federation will be able to 
push a new vote, right before the Olympics, with the IOC 
Council to put women's softball back on the program, because 
we--certainly, we'd be missing an opportunity to embrace our 
role models and have them go out and lead us the way they do.
    There's no question that without women's sports we 
wouldn't--without Title IX, we wouldn't be as far along as we 
are, as far as women's participation in sport. It's fueled the 
desire to be fit and healthy and to embrace competition on the 
field of play fivefold, as the Senator mentioned. But the truth 
is, no matter how it looks on the outside, no matter how many 
stadiums we fill, there's still widespread noncompliance with 
Title IX, and it still results in many women being treated like 
second-class citizens on the playing field.
    For example, although, on average, women are 54 percent of 
the students in colleges, they receive only 43 percent of the 
sports participation opportunities, 38 percent of athletic 
operating dollars, and 33 percent of the money spent on 
recruitment. At the high-school level, girls represent only 42 
percent of varsity athletes. With respect to promotion, the 
lifeblood of any sport, a study of the national and regional 
papers revealed that women receive only 7 to 9 percent of the 
space in the sports sections, and less than that in air time.
    Yes, in a few weeks we're going to see women in the 
spotlight at the Olympics. That's our Super Bowl. But, beyond 
that, just pick up the paper and count how many lines are 
devoted to women's sports.
    Female coaches and administrators continue to face 
discrimination in employment. If you look at our athletic 
departments, only a little over 9 percent of women are head 
athletic directors in our colleges.
    And so, unfortunately, instead of enforcing Title IX, which 
polls show is overwhelmingly supported by the public, the 
Department of Education, in 2002, established a commission to 
review what they called Opportunity in Athletics. I was 
appointed to that commission. I was honored and excited to be 
part of that commission, because I thought we could look at the 
whole picture of sport in the United States, how colleges and 
high schools work with the communities, with the Olympic 
Committee, how we could work together and create synergism so 
we could have more opportunities for more kids. We are looking 
at morbid obesity in our children, and diabetes, and health 
issues that are overwhelming. So, I thought this was a chance 
for all of us, 15 members, 15 leaders in this country, to do 
something, to come up with a new vision. Unfortunately, we got 
mired in the old battle that we're still fighting today that 
pits men against women about Title IX, the myth that, because 
we give resources to women, that those resources are taken away 
from men, when statistics show that that's not the case.
    Therefore, after deliberation and $700,000 of Department of 
Education that was spent on this commission report, where we 
heard from coaches and athletes from across the country, and we 
came up with a debate about 23 recommendations, Julie Foudy and 
I had to file a minority report, because, before we were 
appointed to this commission to look at the status of sports in 
the United States, which ultimately really focused on the Title 
IX guidelines, we were promised that all of our deliberations 
would be reflected in the report. At the end of this process, 
we were told, no, only the majority opinions would be 
reflected. So, Julie Foudy and I, after great frustration, 
decided to introduce a minority report in Congress so that all 
the views could be heard, across the board, about our 
discussions.
    Because of that, and because of the widespread input and 
support of Title IX and the guidelines, the way they were, the 
Department of Education said, ``OK, we're not going to change 
Title IX.'' President Bush, before he was reelected, said, ``We 
will not touch the guidelines. We've gone through the debate. 
They are confusing to people. We need to educate the public. 
There's going to be no changes.'' All of us in this room, the 
Olympians, the people that have been here for 34 years, the 
Senators and Congressmen on both sides of the aisle that have 
supported Title IX, I think, breathed a sigh of relief.
    But, lo and behold, less than 2 years later, in March of 
2005, without any notice or public input, the Department of 
Education did an about-face and issued a new Title IX policy 
that threatens to reverse the enormous progress women and girls 
have made in sports since the enactment of the law. This new 
policy, called an ``additional clarification,'' creates a major 
loophole through which schools can evade their obligation to 
provide equal sports opportunities to women and girls.
    The bottom line is that the policy allows schools to gauge 
female students' interest, as you talked about, Senator Snowe, 
in athletics by doing nothing more than conducting an e-mail 
survey and to claim, in these days of excessive e-mail spam, 
that a failure to respond to the survey shows a lack of 
interest in playing sports. It eliminates schools' obligation 
to look broadly and proactively at whether they are satisfying 
women's interest in sports, and will thereby perpetuate the 
cycle of discrimination to which women have been subjected.
    The new clarification violates basic principles of equality 
and should be rescinded. We spent a year on this, out of 
goodwill. Thirty-four years, we have been back to Congress to 
make sure the guidelines work. They've been tested. They've 
been tested in the courts. They are strong. They are flexible. 
They are fair. We ask you, the leadership, to look at that 
clarification and suggest that it be taken out of the 
Department of Education's website. We were promised, after our 
Congress--after our meetings and our commission, that Title IX 
would stay intact, and that promise was not kept. And so, we're 
here today, all of us, as we've been battling, representing the 
country, when we can, as athletes and leaders, for you to look 
closely at this clarification and do the right thing.
    Thank you.
    [The prepared statement of Ms. de Varona follows:]

  Prepared Statement of Donna De Varona, U.S. Olympian and President, 
                       Women's Sports Foundation

    Good Morning, I am Donna de Varona. I want to thank the Senate 
Committee on Commerce, Science, and Transportation for inviting me to 
testify today, and I ask that my written statement and attachments be 
included in the record.
    My relationship with Washington and Congress dates back to the 
1960s, when after returning from the 1964 Olympic games in Tokyo, I was 
appointed to my first of four terms on the President's Council on 
Physical Fitness. Back then I spent my summers working in intercity 
programs with children. I have also served on the United States Olympic 
Committee and the Boards of the Special Olympics, the Women's Sports 
Foundation, and the U.S. Soccer Foundation. I was a member of President 
Ford's Commission on Olympic Sports and President Carter's Women's 
Advisory Commission. From 1976 to 1978, I was a special consultant to 
the U.S. Senate on sports matters, and most recently I served as a 
Commissioner on Secretary of Education Roderick Paige's Opportunity in 
Athletics Commission. Subsequently, I was appointed to a Senate task 
force to help recommend a comprehensive plan to restructure the United 
States Olympic Committee.
    Today we have been asked to address the status of women in sport 
both in the areas of promotion and opportunities. Although women and 
young girls have come a long way since the passage of Title IX some 
thirty-four years ago, there is still a lot to do. The framers of the 
legislation and later on the guidelines understood that mandating 
equality in opportunity could not happen overnight, and that is the 
reason why the guidelines and the three-part participation test are 
crafted the way they are. The guidelines and the test are flexible and 
fair. History has painted a picture of tremendous growth and acceptance 
of the female athlete, but she still battles the perception that girls 
and women are inherently less interested in sports than men and that 
providing women with opportunities cheats men out of resources. The 
argument pits young men and women against each other, and claims like 
these, as well as widespread non-compliance with Title IX in schools 
across the country have resulted in women being treated like second-
class citizens on the playing field. For example, although on average 
women are 54 percent of the students in colleges, they receive only 43 
percent of the sports participation opportunities, 38 percent of 
athletic operating dollars and 33 percent of the money spent on 
recruitment. \1\ At the high school level, girls represent only 42 
percent of varsity athletes. \2\ In addition, women and girls continue 
to face discrimination at all levels of education and in community, 
recreational and professional sports programs, including in coverage of 
these programs by the media. \3\ With respect to promotion, the 
lifeblood of any sport, a study of national and regional papers 
revealed that women receive only about 7 to 9 percent of the space in 
the sports sections and less than that in air time. \4\
---------------------------------------------------------------------------
    \1\ NCAA, 2002-2003 Gender Equity Report (2004).
    \2\ NFHS, 2002 High School Athletics Participation Survey.
    \3\ See, e.g., Priest, Laurie and Liane M. Summerfield, ``Promoting 
Gender Equity in Middle and Secondary School Sports Programs,'' ERIC 
Digest, 1994; Rebecca Vesely, ``California Takes Lead in Sports 
Equity,'' Women's eNews, Sept. 13, 2004 (regarding bill banning gender 
bias in youth athletics programs run by cities and counties), available 
at http://www.womensenews.org/article.cfm/dyn/aid/1988/context/archive; 
Sarah J. Murray, ``Posting Up in the Pink Ghetto,'' Women's Sports 
Foundation, available at http://www.womenssportsfoundation.org/cgi-bin/
iowa/issues/body/article.html?record=884.
    \4\ Judith Jenkins George, ``Lack of News Coverage for Women's 
Athletics: A Questionable Practice of Newspaper Priorities,'' Aug. 20, 
2001, available at http://www.womenssportsfoundation.org/cgi-bin/iowa/
issues/media/article.html?record=807. 
---------------------------------------------------------------------------
    While girls and women can perform on the athletic stage, they still 
do not run a major sports broadcast network, nor make many important 
broadcast programming decisions. In educational institutions, the 
number of women head coaches and sports administrators has stagnated. 
In the past decade, we have seen two women's sports magazines fold, two 
professional leagues go out of business, and numerous established 
women's sports leaders leave the sporting profession. Softball has been 
taken off the Olympic program. In the broadcast profession, two well-
known sports personalities--Robyn Roberts and Hanna Storm--have moved 
over to news departments. On the collegiate level, many female sports 
administrators have been let go with no future hope of employment in a 
sporting world too often controlled by a huge boys' club with sports 
boosters pulling the strings. For example, take a look at the story of 
1972 Olympic gold medalist swimmer, Karen Moe. Karen has spent more 
than twenty years at the University of California. A winning and 
honored athlete and coach, she mentored 49 All-Americans and 9 
Olympians. Fourteen years ago she was promoted to the athletics 
department and has consistently been given high performance ratings as 
an administrator. This year she was let go from her job with no 
explanation. Her departure is a loss to the University, to the 
students, and to those women who have lost a role model and are now 
wondering about pursuing a profession as sports administrator.
    Yet with the stunning success of events like the 1999 Women's World 
Cup, when America's largest and most prestigious stadiums were packed 
with young vibrant fans to watch women compete, one might get the 
impression that all is healthy in women's sports. After all, since the 
passage of Title IX, we have witnessed an unprecedented increase in 
participation. Before Title IX was enacted, fewer than 32,000 took part 
in collegiate sports. Now more than 150,000 take part. In high school, 
the number has gone from 300,000 to over 2.8 million. \5\ With this 
increased participation has come the ability to research the true 
benefits of sport for women, and the results show huge benefits such as 
the promotion of responsible social behavior, greater academic success, 
and increased personal skills. According to published research such as 
the Carnegie Corporation's ``The Role of Sports in Youth Development,'' 
compared to their non-athletic peers, athletes are less likely to smoke 
or use drugs; have lower rates of sexual activity and teen pregnancy; 
have higher grades; and learn how to work with a team, perform under 
pressure, set goals, and take criticism. \6\ Since health costs are 
soaring in this country and the Nation faces a serious problem with 
morbid obesity and diabetes, I would be remiss if I did not mention the 
health benefits to those who are fit and much more able lead by example 
and teach the values of a healthy lifestyle to their peers and someday 
their children.
---------------------------------------------------------------------------
    \5\ National Collegiate Athletic Association (NCAA), 1982-2002 
Sponsorship and Participation Report 65, available at http://ncaa.org/
library/research/participation_rates/1982-2002/participation.pdf; 
National Federation of State High School Associations (NFHS), 2002 High 
School Athletics Participation Survey, available at http://
www.nfhs.org/nf_survey_resources.asp.
    \6\ See, e.g., Carnegie Corporation, The Role of Sports in Youth 
Development, 9 (March 1996); NFHS, The Case for High School Activities 
(2002) at 3, 9; The National Campaign to Prevent Teen Pregnancy, Fact 
Sheet: Not Just Another Single Issue: Teen Pregnancy and Athletic 
Involvement (July 2003); The Women's Sports Foundation Report: Sport 
and Teen Pregnancy (1998) at 5-7; The President's Council on Physical 
Fitness and Sports, Physical Activity & Sports in the Lives of Girls 
(Spring 1997); and Black Female Athletes Show Grad-Rate Gains, The NCAA 
News (June 28, 1995).
---------------------------------------------------------------------------
    However, it is dangerous to assume that just because some 
exceptional efforts attract a nationwide spotlight all is healthy in 
women's sports. In fact, despite the fact that sports for girls and 
women have proven to be so beneficial, there is still an unfortunate 
debate going on as to the merits of the law that created those 
opportunities. In June 2002, a 15-member commission was appointed by 
Secretary of Education Roderick Paige to review opportunities in 
athletics. I was a member and I am disappointed to say that most of our 
time was spent on longstanding Title IX policies governing athletics 
and whether they should be revised. To this day, I feel that we all 
missed an important opportunity to address the larger issue of how to 
provide more sports and fitness opportunities to all students in all 
our schools.
    As you have heard from others today, Title IX has been the engine 
that has created an explosion of sports opportunities for women over 
the last three decades. But Title IX has also been under constant 
attack and scrutiny since it was enacted, and today is unfortunately no 
different. The impetus for the Commission centered on claims by some 
that the way in which Title IX has always been enforced by the 
Department ``needlessly results in the elimination of some men's 
teams.'' The Department spent a year and about $700,000 of taxpayers' 
money and heard from thousands of experts and citizens nationwide 
through public meetings, e-mails, reports, and letters, ultimately 
adopting 23 recommendations. \7\ A USA Today /CNN/Gallup poll conducted 
during the Commission's tenure indicated that seven of ten adults who 
are familiar with Title IX think the Federal law should be strengthened 
or left alone. \8\ Yet many of the Commission's ultimate 
recommendations would have seriously weakened Title IX's protections 
and substantially reduced the opportunities to which women and girls 
are entitled under current law.
---------------------------------------------------------------------------
    \7\ See ``Open to All'': Title IX at Thirty, The Secretary of 
Education's Commission on Opportunity in Athletics, Feb. 28, 2003, 
available at http://www.ed.gov/about/bdscomm/list/athletics/
report.html.
    \8\ Erik Brady, ``Poll: Most adults want Title IX law left alone,'' 
USA TODAY, Jan. 7, 2003.
---------------------------------------------------------------------------
    For this reason, and because the Commission's report failed to 
address key issues regarding the discrimination women and girls still 
face in obtaining equal opportunities in athletics, Co-Commissioner 
Julie Foudy and I released a Minority Report setting forth our views. 
\9\ We felt an obligation to all those who testified to produce a 
Minority Report because, contrary to what we were promised at the 
beginning of our deliberations, we were not permitted to include within 
the Commission's report a full discussion of the issues and our 
position on the recommendations that were adopted.
---------------------------------------------------------------------------
    \9\ See Minority Views on the Report of the Commission on 
Opportunity in Athletics, Report submitted by Donna de Varona and Julie 
Foudy, Feb. 2003.
---------------------------------------------------------------------------
    In our Minority Report, we pointed out that the Title IX athletics 
policies have been critical to the effort to expand opportunities for 
women and girls, have been in place through Republican and Democratic 
Administrations, and have been upheld unanimously by the Federal 
appellate courts. We also noted that advances for women and girls have 
not resulted in an overall decrease in opportunities for men, and that 
in the cases where men's teams have been cut, budgetary decisions and 
the athletics arms race are the true culprits. Even the Division I 
athletic directors who served on the Commission testified that revenue 
producing sports in big-time colleges are ``headed for a train wreck.'' 
Based on these findings, we recommended that the current Title IX 
athletics policies not be changed but enforced to eliminate the 
continuing discrimination against women and girls in athletics. We also 
recommended that schools and the public be educated about the flexible 
nature of the law, reminded that cutting men's teams to achieve 
compliance is not necessary or favored, and encouraged to rein in 
escalating athletics costs to give more female and male athletes 
chances to play.
    The outcome of this lengthy and costly Opportunity in Athletics 
debate was that the Department of Education rejected the Commission's 
proposals and strongly reaffirmed the longstanding Title IX athletics 
policies. In its July 11, 2003 ``Further Clarification of 
Intercollegiate Athletics Policy Guidance Regarding Title IX 
Compliance,'' \10\ the Department of Education stated: ``After eight 
months of discussion and an extensive and inclusive fact-finding 
process, the Commission found very broad support throughout the country 
for the goals and spirit of Title IX. With that in mind, OCR today 
issues this Further Clarification in order to strengthen Title IX's 
promise of non-discrimination in the athletic programs of our Nation's 
schools.'' The document goes on to say that Title IX's three-part 
participation test provides schools with three separate ways to comply 
and that nothing in that test requires or encourages schools to cut 
men's teams; it also promised that OCR would aggressively enforce the 
longstanding Title IX standards, including implementing sanctions for 
institutions that do not comply.
---------------------------------------------------------------------------
    \10\ Office for Civil Rights, United States Department of 
Education, ``Further Clarification of Intercollegiate Athletics Policy 
Guidance Regarding Title IX Compliance,'' July 11, 2003.
---------------------------------------------------------------------------
    However, less than two years after strongly reaffirming the 
longstanding Title IX athletics policies, and without any notice or 
public input, the Department of Education did an about-face and posted 
on its website, late in the afternoon of Friday, March 17, 2005, a new 
Title IX policy that threatens to reverse the enormous progress women 
and girls have made in sports since the enactment of Title IX. \11\ 
This new policy, called an ``Additional Clarification,'' creates a 
major loophole through which schools can evade their obligation to 
provide equal sports opportunities to women and girls. The bottom line 
is that the policy allows schools to gauge female students' interest in 
athletics by doing nothing more than conducting an e-mail survey and to 
claim--in these days of excessive e-mail spam--that a failure to 
respond to the survey shows a lack of interest in playing sports. It 
eliminates schools' obligation to look broadly and proactively at 
whether they are satisfying women's interests in sports, and will 
thereby perpetuate the cycle of discrimination to which women have been 
subjected. The new Clarification violates basic principles of equality, 
as I explain further below.
---------------------------------------------------------------------------
    \11\ Office for Civil Rights, United States Department of 
Education, ``Additional Clarification of Intercollegiate Athletics 
Policy: Three-Part Test--Part Three,'' Mar. 17, 2005.
---------------------------------------------------------------------------
    As a member of the Commission that spent a year carefully analyzing 
these issues, I am deeply troubled that the Department would change its 
2003 stated position, in which it reaffirmed the longstanding Title IX 
policies and pledged to enforce them. Instead, the Administration has 
unilaterally adopted this dangerous new policy without public 
announcement or opportunity for public comment. Five of my fellow 
Commissioners and I are so concerned about this new Clarification that 
we recently sent a letter to athletic administrators around the country 
warning them about the flaws of the survey procedure endorsed in it, 
and urging them to decline to use such procedures and instead to join 
us in asking for it to be withdrawn. \12\ To fully understand why this 
new Clarification is so dangerous, it is important to review the 
relevant longstanding Title IX athletics policies. Title IX requires 
schools to provide males and females with equal sports participation 
opportunities. A 1979 Policy Interpretation elaborates on this 
requirement by providing three independent ways that schools can meet 
it--by showing that:
---------------------------------------------------------------------------
    \12\ ``Dear Colleague'' Letter from Ted Leland et al., Oct. 11, 
2005.

  <bullet> The percentages of male and female athletes are about the 
        same as the percentages of male and female students enrolled in 
---------------------------------------------------------------------------
        the school (the ``proportionality'' prong); or

  <bullet> The school has a history and continuing practice of 
        expanding opportunities for the underrepresented sex--usually 
        women; or

  <bullet> The school is fully and effectively meeting the athletic 
        interests and abilities of the underrepresented sex. \13\
---------------------------------------------------------------------------
    \13\ United States Department of Health, Education, and Welfare, 
Office for Civil Rights, Title IX of the Education Amendments of 1972; 
a Policy Interpretation; Title IX and Intercollegiate Athletics, 44 
Fed. Reg. 71,413 (December 11, 1979).

    The Department's new Clarification allows schools not meeting the 
first or second prongs--that is, schools that are not providing equal 
opportunities to their female students and that have not consistently 
improved opportunities for them--to show that they are nonetheless in 
compliance with Title IX by doing nothing more than sending a ``model'' 
e-mail survey to their female students asking about their interest in 
additional sports opportunities. According to the Clarification, the 
Department will presume that schools comply with Title IX if they use 
this survey and find insufficient interest to support additional 
opportunities for women, unless female students can provide ``direct 
and very persuasive evidence'' to the contrary.
    This new policy dramatically weakens existing law. First, it allows 
schools to use surveys alone to demonstrate compliance with the law. 
Under prior Department policies, schools must consider many other 
factors besides surveys to show compliance with prong three, including: 
requests by students to add a particular sport; participation rates in 
club or intramural sports; participation rates in sports in high 
schools, amateur athletic associations, and community sports leagues in 
areas from which the school draws its students; and interviews with 
students, coaches, and administrators. \14\ The new Clarification 
eliminates the obligation to consider these important criteria.
---------------------------------------------------------------------------
    \14\ United States Department of Education, Office for Civil 
Rights, Clarification of Intercollegiate Athletics Policy Guidance: The 
Three-Part Test (Jan. 16, 1996).
---------------------------------------------------------------------------
    Second, surveys are problematic because they are likely only to 
measure the discrimination that has limited, and continues to limit, 
sports opportunities for women and girls. Courts have recognized that 
interest cannot be measured apart from opportunity. \15\ In other 
words, to quote the movie Field of Dreams, ``If you build it, they will 
come.'' Basing women's opportunities on their responses to surveys that 
measure their prior lack of exposure will only perpetuate the cycle of 
discrimination. The new Clarification is particularly damaging for 
students in high school, where female students are likely to have had 
even fewer sports opportunities that would inform their responses to a 
survey, and where students should be encouraged to try many different 
sports, not have their opportunities limited by what they might have 
experienced or be interested in at that time.
---------------------------------------------------------------------------
    \15\ Cohen v. Brown University, 101 F.3d 155, 179-80 (1st Cir. 
1996).
---------------------------------------------------------------------------
    Third, by allowing schools to restrict surveys to enrolled and 
admitted students, the Clarification lets schools off the hook from 
having to measure interest broadly. The Clarification ignores the 
reality that students interested in a sport not offered by a school are 
unlikely to attend that school. By not requiring schools to evaluate 
interest that exists beyond their own campuses--such as in high school, 
community, and recreational programs in the areas from which a school 
typically draws its students--the new policy allows schools to select 
the universe of people who will be able to respond from those who have 
already signaled their willingness to accept limited opportunities.
    Fourth, the Clarification authorizes flawed survey methodology. For 
example, schools may e-mail the survey to all female students and 
interpret a lack of response as evidence of lack of interest. Given the 
notoriously low response rates to surveys in general, let alone to 
anything sent via email, this authorization will allow schools to avoid 
adding new opportunities for women even where interest does in fact 
exist on campus. In addition, schools may presume that young women's 
self-assessment of lack of ability to compete at the varsity level 
reflects an actual lack of ability. Young women who have played sports 
at the club level or sports other than the ones being considered for 
varsity status may well have the ability to compete at a varsity level 
in the sport at issue. Tennis players, for example, may also be able to 
play squash, and many female athletes can become expert rowers. But 
under the new Clarification, schools are relieved of any obligation to 
seek the opinions of coaches or other experts on this issue.
    Fifth, the new Clarification shifts the burden to female students 
to show that they are entitled to equal opportunity. Longstanding Title 
IX policies put the burden on schools to show that they are fully 
meeting the interests and abilities of their female students. The new 
Clarification forces women to prove that their schools are not 
satisfying their interests and that they are entitled to additional 
opportunities.
    Finally, the Department's new policy does not even require that the 
Office for Civil Rights monitor schools' use of the survey to ensure 
that they meet minimal requirements for survey use or interpret the 
results accurately.
    For all these reasons, the Department's new Clarification 
represents a giant step backwards in the progress that women and girls 
have made in the past three decades. If left in place and used by 
schools, the new Clarification will lead to a reduction in 
opportunities for our Nation's daughters. We call on Congress to do 
everything within its power ensure that this does not happen.
    Title IX has opened the door for millions of women and girls to 
participate in sports, but much work remains to be done to fulfill its 
promise and vision. We welcome Congress' focus on the promotion and 
advancement of women in sports and look forward to working together to 
expand athletic opportunities for women and girls.

    The Chairman. Thank you, Donna.
    And next, Dominique, I guess I should have called on you 
first. I apologize, because you are the president of Women's 
Sports Foundation. I'm delighted that you've come. I think 
people should know that you're not only the president, but 
you're a three-time Olympic gymnast yourself--2000, 1996, 1992. 
You're a member of the U.S. Olympics women's gymnastic team 
that got us our first Gold Medal in that gymnastics team 
effort. And we're delighted that you've taken on the role of 
president of Sports Foundation. And, as Donna outlined, you 
have a big job to help us turn that around. So, we'd be happy 
to have your comments.

  STATEMENT OF DOMINIQUE DAWES, U.S. OLYMPIAN AND PRESIDENT, 
                   WOMEN'S SPORTS FOUNDATION

    Ms. Dawes. Good morning, Senators. Good morning, staff. 
Thank you so much for having me, inviting me to testify.
    I'm Dominique Dawes, three-time Olympian, Olympic gold 
medalist, and president of the Women's Sports Foundation, and I 
am truly honored to be here this morning amongst past 
presidents Donna de Varona, Benita Fitzgerald Mosley, and, of 
course, Billie Jean King.
    Today, as you all know, is National Girls and Women in 
Sports Day. And I am taking part in participating in National 
Women in Sports Day not only because I started gymnastics at 
the ripe old age of 6 years old, but because gymnastics has 
really made me the confident, secure person that I am today.
    This is an appropriate time to express concern about the 
current state of physical inactivity among young girls. While 
others on this panel have addressed the issue of inequality in 
sports opportunities and fitness, I would like to place in 
perspective what is at stake if we do not equally encourage our 
sons and daughters to participate in sports and engage in 
regular physical activity.
    We are in the midst of an obesity epidemic that has been 
created by sedentary lifestyles and poor nutrition. If we do 
nothing to change these circumstances, one in three children 
that were born in 2000 will develop Type 2 diabetes. While we 
know that both boys and girls are in danger, we also know that 
girls are at greater risk for inactivity in our society, 
especially girls from underserved and lower socioeconomic 
populations.
    By the time a girl is 17 years old, she has seen 250,000 
television commercials focusing on her looks--not her health or 
physical abilities. Mind you, when I trained, I was in the gym 
40 hours a week, so I had absolutely very little time for 
television, so I missed, thank goodness, all of those 
television commercials. Fifty-one percent of 9- to 10-year-old 
girls feel better about themselves when they're dieting. Fifty-
three percent of 13-year-old girls are unhappy with their 
bodies, increasing to 78 percent at the age of 17 years old.
    Now, I'm a part-time coach in the sport of gymnastics, and 
all of my young girls are proud with the way that they look, 
with the way that they feel. And I truly attribute that to 
their commitment in the sport of gymnastics. And I want that 
for all young girls.
    The media has even convinced girls that big is unattractive 
and they must achieve an unobtainable body type, even though 
big girls can be fit and healthy. However, what we've realized 
is one in six girls is now obese or overweight, contrasted to 
the one in 21 in 1970. African-American girls are twice as 
likely to be overweight than their counterpart Caucasian young 
girls. Now, that's sad to hear.
    If a girl does not participate in sports by the time she is 
10 years old, there is only a 10 percent chance that she will 
participate when she reaches age 25. And between middle-school 
and high-school girls, they drop out at twice the rate of that 
of their male counterparts. By the age of 16 and 17, only one 
in seven girls attends physical education class daily, and 15 
to 30 percent report no regular physical activity at all.
    Now, I remember when I was in elementary school, junior 
high, high school, I was required--on top of my 40 hours of 
training in the sport of gymnastics, to take part in mandatory 
P.E. classes, and it's sad to think that the kids today, they 
don't have that, and that their health is secondary. And that's 
a problem.
    High-school boys receive 40 percent more chances to play 
varsity sports than girls, with similar statistics in college. 
We know that sports and physical activity can make a critical 
difference. I know. Regular participation in physical activity 
during childhood and adolescence promotes the development of 
positive body image, confidence, and self esteem. Girls who 
participate in sports and physical activity are academically 
more successful, more likely to graduate from high school, more 
likely to matriculate in college, and experience greater career 
success.
    Participation in sports and other physical activities can 
also help reduce a girl's health risk from many different 
ailments--obesity, diabetes, heart disease, the number one 
killer, cardiovascular disease, the number one killer of women, 
osteoporosis, breast cancer, depression, unintended teen 
pregnancy, anxiety, and low self esteem, among others.
    Well, I am here this morning to respectfully request that 
the Members of Congress increase their efforts to give every 
girl an equal chance to play, because her life depends on it. 
Specifically, the Office of Civil Rights of the Department of 
Education must enforce Title IX. Congress must exercise its 
oversight responsibilities to make sure that OCR is meeting its 
legal responsibilities to enforce Title IX. Efforts to weaken 
Title IX, such as the clarification, should not be supported by 
Congress. The Department has done just that with this 
clarification, and Congress ought to do everything in its power 
to ensure that the Department rescinds this unfair and unlawful 
policy. Our sons and daughters must have the same opportunities 
and encouragement to participate in sports and physical 
activity.
    Also, funding the Carol M. White Physical Education Program 
should be increased in order to provide funds for mandatory 
physical-education programming and meeting State physical-
education standards. Physical education is delivered through 
our schools, and it is the most cost-effective physical-
activity delivery system we can invest in, and the only program 
that serves children of all socioeconomic levels.
    And, finally, the United States Olympic Committee and its 
national sports governing bodies must be asked to fulfill the 
full promise of the Ted Stevens Olympic and Amateur Sports Act 
to provide equal opportunities for women, minorities, and the 
disabled in grassroots--as well as elite-level sports. We will 
not continue to dominate in Olympic competition, as we have for 
so many years, if we forget about broad participation at the 
grassroots level.
    I want to thank you so much for your time, your 
consideration, and, more importantly, your passion for our 
young girls. Thank you.
    [The prepared statement of Ms. Dawes follows:]

  Prepared Statement of Dominique Dawes, U.S. Olympian and President, 
                       Women's Sports Foundation

    I am Dominique Dawes, president of the Women's Sports Foundation, a 
501(c)(3) non-profit national educational organization. The Foundation 
was founded in 1974 by Billie Jean King, to advance the lives of girls 
and women through sports and physical activity. Billie Jean and a host 
of legendary athletes leaders who like me, have served as President of 
the Foundation, did not want girls following in their footsteps to face 
the same barriers to participation as they did. To address the needs of 
girls and women in sports, the Foundation produces programming in four 
areas: education, advocacy, recognition and grants and is among the top 
ten public women's grant-giving funds in the Nation.
    As an athlete, I have had the privilege of representing the United 
States in three Olympic Games: 2000, 1996, 1992 and was a member of the 
1996 Olympic women's team that clinched the first-ever gymnastics team 
gold medal for the United States. In addition to the team gold medal, I 
won an individual bronze medal in the floor exercise at the 1996 
Olympic Games, becoming the first African-American to win an individual 
event medal in gymnastics. On August 13, 2005, I was honored to be 
inducted into the USA Gymnastics Hall of Fame. I am also a television 
sports commentator and analyst and I coach gymnastics privately at 
Hill's Gymnastics in Gaithersburg, Maryland, the gym where I grew up 
training. I am also a spokesperson for the Girls Scouts ``uniquely ME'' 
program which builds girls' self esteem and empowers them to fulfill 
their potential. I am a graduate of the University of Maryland, College 
Park, with a degree in communications.
    Today is National Girls and Women in Sports Day and I am also here 
representing the seven co-sponsoring agencies of the Day: the American 
Association of University Women (AAUW), Girls Incorporated, Girl Scouts 
of U.S.A., the National Association for Girls and Women in Sport 
(NAGWS), National Women's Law Center (NWLC), the Women's Sports 
Foundation (WSF), and the YWCA of the U.S.A. (YWCA).
    I am here before you to express concern about the current state of 
inactivity among girls and how non-compliance with Title IX, the lack 
of equal opportunity in schools and colleges and open amateur sports 
and our current media culture contributes to girls being at higher risk 
for chronic diseases that are the result of sedentary lifestyles. While 
others on this panel will address the issue of inequity of sports 
opportunities, I would like to place in perspective what is at stake if 
we do not equally encourage our sons and daughters to participate in 
sports and engage in regular physical activity.

Girls At Higher Risk for Physical Inactivity
    The current widespread American support for equal treatment of 
males and females in sports is directly related to the fact that the 
public now understands that sports and physical activity are essential 
for the health and well-being of our children. We are in the midst of 
an obesity epidemic that has been created by sedentary lifestyles and 
poor nutrition habits. If we do nothing to change these circumstances, 
one in three children born in the year 2000 will develop Type 2 
diabetes. \1\
    We also know that girls are at greater risk for inactivity in our 
society than boys, especially girls from underserved and lower 
socioeconomic populations. By the time a girl is 17 years old she has 
seen 250,000 television commercials focusing on her looks - not her 
health or physical abilities. \2\ Forty-two percent of girls in grades 
one through three want to be thinner, \3\ 51 percent of 9-10-year-old 
girls feel better about themselves when dieting \4\ and 53 percent of 
13 year old girls are unhappy with their bodies, increasing to 78 
percent at age 17. \5\ The media has convinced girls that ``big'' is 
unattractive and they must achieve an unattainable body type, even 
though big girls can be fit and healthy. One in six girls is now obese 
or overweight contrasted to one in 21 in 1970. \6\ Black girls are 
twice as likely to be overweight as white girls. \7\ If a girl does not 
participate in sports by the time she is 10 years old, there is only a 
10 percent chance she will participate when she reaches the age of 25. 
\8\ Between middle school and high school, girls drop out of sport at a 
rate that is double that of boys. \9\ By the age of 16 or 17 only one 
in seven girls attends physical education class daily and 15-30 percent 
report no regular physical activity at all. \10\ High school boys 
receive 40 percent more chances to play varsity sports than girls with 
similar statistics in college. \11\

Sport and Physical Activity: An Effective Intervention
    We know that sport and physical activity are effective 
interventions to addressing the obesity crisis and research shows that 
sports and physical activity participation has an incredibly positive 
impact on the lives of girls and women. A 2004 compilation of research 
on the relationship of girls' and women's health by the Women's Sports 
Foundation summarized these benefits. \12\ Regular participation in 
physical activity during childhood and adolescence promotes the 
development of positive body image, \13\ confidence, \14\ and self-
esteem. \15\ Girls who participate in sports and physical activity are 
academically more successful, \16\ more likely to graduate from high 
school, \17\ more likely to matriculate in college, \18\ and experience 
greater career success. \19\ Participation in sports and other physical 
activities can help reduce a girl's health risk for obesity, \20\ 
diabetes, \21\ heart disease, \22\ osteoporosis, \23\ breast cancer, 
\24\ depression, \25\ unintended teen pregnancy, \26\ anxiety and lack 
of self-esteem \27\ among others.
    A physical activity intervention is essential if we want to change 
the following startling statistics:

  <bullet> 1 in every 6 girls is obese or overweight; \28\ and as 
        women, are 60 percent more likely to die from breast cancer 
        \29\

  <bullet> 1 in 3 teens get pregnant by the age of 20 \30\

  <bullet> 1 in 3 girls in grades 9-12 currently smoke; \31\ lung 
        cancer is the leading cause of cancer deaths among women \32\

  <bullet> 1 in 3 adolescent girls will experience depression, \33\ 
        anxiety or eating disorders \34\

  <bullet> Girls aged 4-19 have significantly higher ``bad'' 
        cholesterol levels than boys; heart disease is the #1 cause of 
        death among American women. \35\

    In addition to physical and mental health benefits, the lessons of 
sport contribute to women's career success. Eighty percent of women 
identified as key leaders in Fortune 500 companies participated in 
sports during their childhood and self-identified as having been 
``tomboys. \36\ '' More than four out of five executive businesswomen 
(82 percent) played sports growing up--and the vast majority say 
lessons learned on the playing field have contributed to their success 
in business. \37\ In a study of active female executives, 86 percent 
said sports helped them to be disciplined, 69 percent said sports 
helped them develop leadership skills that contributed to their 
professional success, and 69 percent said sports has given them a 
competitive edge over others. \38\

Need For Congressional Leadership
    I am here to respectfully request that Members of Congress continue 
and increase their efforts to address the issue of lower opportunities 
for girls to participate in sports and physical activity. Specifically:

        1. The Office of Civil Rights of the Department of Education 
        must enforce Title IX. There are too many institutions that are 
        simply not in compliance with the law and too few compliance 
        reviews are being conducted. Funding and other encouragement 
        for this agency is necessary.

        2. Efforts to weaken Title IX should not be supported by 
        Congress. Our sons and daughters must have the same 
        opportunities and encouragement to participate in sports and 
        physical activity.

        3. Funding for the Carol M. White Physical Education Program, 
        an Act promulgated because of the leadership of Senator 
        Stevens, should be increased in order to provide funds for 
        mandatory physical education programming and meeting state 
        physical education standards. Physical education delivered 
        through our school is most cost effective physical activity 
        delivery system we can invest in and the only program that 
        serves children of all socio-economic levels.

        4. The United States Olympic Committee and its national sports 
        governing bodies must be asked to fulfill the full promise of 
        the Ted Stevens Olympic and Amateur Sports Act to provide equal 
        opportunities for women, minorities and the disabled in 
        grassroots as well as elite level sports. We will not continue 
        to dominate Olympic competition if we forget about broad 
        participation at the grassroots level.

    Your consideration of these comments is greatly appreciated.
ENDNOTES
    \1\ Journal of the American Medical Association. (2003). 290:1884-
1890.
    \2\ Mediascope. (2003). Body Image and Advertising. Online. 
Retrieved from http://www.mediascope.org/pubs/ibriefs/bia.htm.
    \3\ Colton, M. and Core, S. (1991). Risk, Resiliency, and 
Resistance: Current Research on Adolescent Girls. Ms. Foundation.
    \4\ McNutt, S., Hu, Y., Schreiber, G.B., Crawford, P., Obarzanek, 
E., and Mellin, L. (1999). ``A longitudinal study of dietary practices 
of black and white girls 9 and 10 years old at enrollment: The NHLBI 
growth and health study.'' Journal of Adolescent Health, 20(1):27-37.
    \5\ Brumberg, J. (1998). The Body Project: An Intimate History of 
American Girls. NY: Vintage.
    \6\ National Center for Health Statistics. (2002). Health, United 
States, 2002. Hyattsville, MD.
    \7\ Centers for Disease Control and Prevention. (1999-2000). 
National Health and Nutrition Examination Survey, 1999-2000.
    \8\ Linda Bunker, University of Virginia. (1988). Lifelong Benefits 
of Sports Participation for Girls and Women, Presented at the Sport 
Psychology Conference, University of Virginia, Charlottesville, June 
22.
    \9\ U.S. Secretary of Health and Human Services and U.S. Secretary 
of Education. (2000).
    \10\ Centers for Disease Control and Prevention. (2002). 
``Surveillance Summaries.'' Morbidity and Mortality Weekly Report, 51 
(No. SS-4).
    \11\ National Federation of State High School Associations. (2003). 
NFHS Handbook 2003-3004. Indianapolis, IN: National Federation of State 
High School Associations; National Collegiate Athletic Association. 
Participation Statistics. 2001-2002. Can be retrieved at www.ncaa.org.
    \12\ Sabo, D., Miller, K.E., Melnick, M.J. & Heywood, L. (2004). 
Her Life Depends On It: Sport, Physical Activity, and the Health and 
Well-Being of American Girls. East Meadow, NY: Women's Sports 
Foundation.
    \13\ Women's Sports Foundation, 2001; President's Council on 
Physical Fitness and Sports, 1997; Colton, M., and Gore, S. (1991). 
Risk, Resiliency, and Resistance: Current Research on Adolescent Girls. 
Ms. Foundation; Women's Sports Foundation, 1985.
    \14\ President's Council on Physical Fitness and Sport. (1997). 
Physical Activity & Sport in the Lives of Girls; Women's Sports Miller 
Lite Report, 1985; Melpomene Institute, 1995.
    \15\ Fox, 1988, 2000; Guinn, Semper and Jorgensen, 1997; Palmer, 
1995; Sonstroem,1984, 1997.
    \16\ Sabo, D., Melnick, M., and Vanfossen, B. (1989). The Women's 
Sports Foundation Report: Minorities in Sports. New York: Women's 
Sports Foundation, Eisenhower Park, East Meadow, NY 11554.
    \17\ Sabo, D., Melnick, M., and Vanfossen, B. (1989). The Women's 
Sports Foundation Report: Minorities in Sports. New York: Women's 
Sports Foundation, Eisenhower Park, East Meadow, NY 11554.
    \18\ Marsh, H.W. and Kleitman, S. (2003). ``School athletic 
participation: Mostly gain with little pain.'' Journal of Sport and 
Exercise Psychology, 25:205-228.
    \19\ Bunker, L.K. ``Life-long Benefits of Youth Sport Participation 
for Girls and Women.'' Presented at the Sport Psychology Conference, 
University of Virginia, Charlottesville, June 22, 1988, Game Face, From 
the Locker Room to the Boardroom: A Survey on Sports in the Lives of 
Women Business Executives, Feb. 2002.
    \20\ U.S. Department of Health and Human Services. (1996). Physical 
Activity and Health: a Report of the Surgeon General. Atlanta, GA: U.S. 
Department of Health and Human Resources, Centers for Disease Control 
and Prevention, National Center for Chronic Disease Prevention and 
Health Promotion. Colditz, G.A. (1999); ``Economic costs of obesity and 
inactivity. (Physical Activity in the Prevention and Treatment of 
Obesity and its Comorbidities)'' Medicine and Science in Sports and 
Exercise, 31:5663-68; Ward, D., Trost, S., Felton, G., Saunders, R., 
Parsons, M., Dowda, M., and Pate, R. (1997). ``Physical activity and 
physical fitness in African-American girls with and without obesity.'' 
Obesity Research, 5:572-577.
    \21\ Associated Press. (2003). ``Diabetes in children set to 
soar.'' MSNBC. June 16, 2003. Colditz, G.A. (1999). ``Economic costs of 
obesity and inactivity. (Physical Activity in the Prevention and 
Treatment of Obesity and its Comorbidities)'' Medicine and Science in 
Sports and Exercise, 31:5663-68.
    \22\ Centers for Disease Control and Prevention Center. (1995). 
National Health and Nutrition Examination Survey III 1994; National 
Center for Chronic Disease Prevention and Health Promotion. (1996). 
Physical Activity and Health, A Report of the Surgeon General, (S/N 
017-023-00196-5). Washington, DC: U.S. Department of Health and Human 
Services; Haddock, B.L., et al., (1998). ``Cardiorespiratory fitness 
and cardiovascular disease risk factors in postmenopausal women.'' 
Medical Science and Sport Exercise, 30:893-898; Kendig, S., and 
Sanford, D. (1998). Midlife and menopause: Celebrating women's health. 
AWHONN Symposia Series. Washington, DC: AWHONN.
    \23\ Kannus, P. (1999). ``Preventing osteoporosis, falls, and 
fractures among elderly people.'' British Medical Journal, 318:205-206; 
Teegarden et al., (1996). ``Previous physical activity relates to bone 
mineral measures in young women.'' Medicine and Science in Sports and 
Exercise, 28(1:105-113); Bonaiuti, D., et al. (2002). ``Exercise for 
preventing and treating osteoporosis in postmenopausal women (Cochrane 
Review).'' In The Cochrane Library, Issue 3, Update Software.
    \24\ Bernstein, L., Henderson, B., Hanisch, R., Sullivan-Halley, 
J., and Ross, R. (1994). ``Physical Exercise and reduced risk of breast 
cancer in young women.'' Journal of the National Cancer Institute, Vol. 
86:1403-1408; Thune, I., et al. (1997). ``Physical activity and the 
risk of breast cancer.'' New England Journal of Medicine, 18:1269-1275; 
McTiernan, et al. (2003). ``Recreational physical activity and the risk 
of breast cancer in postmenopausal women: The Women's Health Initiative 
Cohort Study.'' Journal of the American Medical Association, September 
10; 290(10):1331-6; Patel, et al. (2003). ``Recreational physical 
activity and risk of postmenopausal breast concern in a large cohort of 
U.S. women,'' Cancer Causes Control, (6):519-529.
    \25\ Dunn, A.L., Trivedi, M.H., and O'Neal, H.A. (2001). ``Physical 
activity dose-response effects on outcomes of depression and anxiety.'' 
Medicine and Science in Sports and Exercise, 33 (6):S587-S597; Dimeo, 
F., Bauer, M., Varahram, I., Proest, G., and Halter, U. (2001). 
``Benefits from aerobic exercise in patients with major depression: a 
pilot study.'' British Journal of Sports Medicine, 35:114-117; Page, 
R.M., and Tucker, R.A. (1994). ``Psychosocial discomfort and exercise 
frequency: An epidemiological study of adolescents.'' Adolescence, 
29(113):183-201; Nicoloff, G., and Schwenk, T.S. (1995). ``Using 
exercise to ward off depression.'' Physician and Sportsmedicine, 
23(9):44-58; Ahmadi, J., et al., (2002). ``Various Types of exercise 
and scores on the Beck Depression Inventory.'' Psychological Reports, 
90(3)821-822; Sanders, C.E. et al., (2000).``Moderate involvement in 
sports is related to lower depression levels in adolescents.'' 
Adolescence, 35(140):793-797.
    \26\ Dodge, T. and Jaccard, J. (2002). ``Participation in athletics 
and female sexual risk behavior: The evaluation of four causal 
structures.'' Journal of Adolescent Research, 17:42-67; Miller, K.E. et 
al., (1999). ``Sports, sexual activity, contraceptive use, and 
pregnancy among female and male high school students: Testing cultural 
resource theory.'' Sociology of Sport Journal, 16:366-387; Page, R.M. 
et al., (1998). ``Is school sports participation a protective factor 
against adolescent health risk behaviors?'' Journal of Health 
Education, 29(3):186-192; Rome, E.S., Rybicki, L.A., and Durant, R.H. 
(1998). ``Pregnancy and other risk behaviours among adolescent girls in 
Ohio.'' Journal of Adolescent Health, 22:50-55; Sabo, D. et al., 
(1998). The Women's Sports Foundation Report: Sport and Teen Pregnancy. 
East Meadow, NY: Women's Sports Foundation.
    \27\ Artal, M. and Sherman, C. (1998). ``Exercise against 
depression.'' Physician and Sportsmedicine, 26(10). Available online 
from http://www.physsportsmed.com/issues/1998/10Oct/artal.htm.
    \28\ National Center for Health Statistics. Health, United States, 
(2002). Hyattsville, MD.
    \29\ Calle, E. et al. (2003). ``Overweight, obesity, and mortality 
from cancer in a prospectively studied cohort of U.S. adults.'' New 
England Journal of Medicine, Apr 24, 2003. 348(17)1625-1638.
    \30\ Henshaw, S.K. (2003). U.S. teenage pregnancy statistics with 
comparative statistics for women aged 20-24. New York: The Alan 
Guttmacher Institute; National Campaign to Prevent Teen Pregnancy. 
(2002). Not just another single issue: Teen pregnancy prevention's link 
to other critical social issues. Washington, DC: Author.
    \31\ Centers for Disease Control and Prevention. (2002). ``Annual 
smoking-attributable mortality, years of potential life lost, and 
economic costs--United States, 1995-1999. ``Morbidity and Mortality 
Weekly Report, 51:300-303.
    \32\ U.S. Department of Health and Human Services. (2001). Women 
and smoking: A report of the surgeon general. Rockville: U.S. 
Department of Health and Human Services, Office of the Surgeon General.
    \33\ The Commonwealth Fund. (1997). ``Survey finds missed 
opportunities to improve girls' health.'' Commonwealth Fund Quarterly 
3(3). Online. Retrieved from http://www.cmwf.org/publist/quarterly/
fas97qrt.asp?link=6.
    \34\ Schreiber, G.B. et al. (1996). ``Weight modification efforts 
reported by black and white preadolescent girls: National Heart, Lung, 
and Blood Institute Growth and Health Study.'' Pediatrics, 98(1):63-70.
    \35\ Sabo, D., Miller, K. E., Melnick, M. J. & Heywood, L. (2004). 
Her Life Depends On It: Sport, Physical Activity, and the Health and 
Well-Being of American Girls. East Meadow, NY: Women's Sports 
Foundation.
    \36\ Bunker, L.K. ``Life-long Benefits of Youth Sport Participation 
for Girls and Women.'' Presented at the Sport Psychology Conference, 
University of Virginia, Charlottesville (June 22, 1988).
    \37\ Game Face, From the Locker Room to the Boardroom: A Survey on 
Sports in the Lives of Women Business Executives, Feb. 2002.
    \38\ Women in Higher Education, March 2002.

    The Chairman. Thank you very much.
    Our next witness, Jennie Finch, a member of the pro fast-
pitch Chicago Bandits, star pitcher for the gold medal winning 
2004 USA Olympic women's softball team. We congratulate Casey 
Daigle for being your husband. And you can tell us about your 
new arrival, when it's going to come.

STATEMENT OF JENNIE FINCH, U.S. OLYMPIAN/PROFESSIONAL SOFTBALL 
                             PLAYER

    Ms. Finch. Thank you for being here. It's an honor to sit 
on this board. I want to thank the Women's Sports Foundation 
for bringing me in and giving me this opportunity.
    I am Jennie Finch, a professional softball player and a 
pitcher on the gold medal winning 2004 USA Olympic women's 
softball team.
    I would not be here today if it wasn't for Title IX. Like 
my two older brothers, my life has been centered around sports. 
It is where I have met my closest friends and shaped the values 
that have made me a successful athlete, student, and role model 
for young people. I started playing softball when I was 5 years 
old. I was so excited to get introduced to a sport that was 
just for girls but similar to what my brothers played. It made 
me what I am: a disciplined and hardworking person at whatever 
I do, a team player who understands the importance of working 
with others, and a person who knows how to put losing, sitting 
on the bench, or a tough boss in perspective.
    I know I was lucky, in that I had access to many 
opportunities that other women did not. My family supported my 
playing, and I had access to neighborhood teams. I got an 
athletic scholarship that gave me a college education and 
sports career opportunities.
    But there are others who have not been as fortunate as I. 
Girls receive over a million fewer opportunities to play high-
school sports than boys, and have significantly fewer 
opportunities at college level, too. College female athletes 
receive $135 million less in athletic scholarships than college 
male students. Colleges spend $1 billion less on women's sports 
than men's sports.
    Women are vastly underrepresented in sports leadership 
positions, from athletic directors and coaches to executives in 
the National Sports Governance Organization and the USOC. Women 
of color are represented by single-digit percentages in 
coaching and administrative positions. The higher the status or 
salary of the position, the lower the percentage of females who 
are employed.
    Just this past year, despite the fact that women are still 
significantly underrepresented in the Olympic Games, the 
International Olympic Committee voted to eliminate women's 
softball from the 2012 games. I've provided a number of facts, 
which we are all aware of. I am here as proof that Title IX can 
work, and has worked. My goal is to help more female athletes 
receive the benefits and opportunities that Title IX has 
provided me as a student athlete at the University of Arizona 
and as an Olympian and a professional athlete.
    I am here to ask that Members of Congress address these 
issues, because it is very difficult for athletes and parents 
to do so. We have the Federal mechanisms in place to realize 
the promise of equal opportunities for all women if Congress 
makes sure that Title IX enforcement happens. Women in sport 
need your help. Your consideration of this requested assistance 
is greatly appreciated.
    Thank you.
    [The prepared statement of Ms. Finch follows:]

Prepared Statement of Jennie Finch, U.S. Olympian/Professional Softball 
                                 Player
    I am Jennie Finch, currently a member of the National Pro Fastpitch 
Chicago Bandits women's softball team. I was the pitcher for the gold 
medal winning 2004 United States women's Olympic softball team. I 
played softball at the University of Arizona and hold the NCAA record 
for consecutive wins (60). In my senior season, I helped Arizona reach 
the NCAA Women's College World Series and place second. In 2001, 
Arizona won the national championship and I was named the Women's 
College World Series Most Outstanding Player. As Pac-10 Pitcher of the 
Year, I finished that season with a 32-0 record and the NCAA record for 
most wins in a season without a defeat. I am a two-time winner of the 
Honda Award, an award presented to the Nation's best player. I am also 
involved with the Make-A-Wish Foundation and give clinics and lessons 
to underserved kids.
    I would not be here if it wasn't for Title IX. Like my two older 
brothers, my life has been centered around sports. It is where I have 
met my closest friends and shaped the values that have made me a 
successful athlete, student and role model for young people. I started 
playing softball when I was five years old and was so excited to get 
introduced to a sport just for girls. It made me what I am: a 
disciplined and hardworking person at whatever I do, a team player who 
understands the importance of working with others, and a person who 
knows how to put losing, sitting the bench or a tough boss in 
perspective. I know I was lucky in that I had access to many 
opportunities that other women did not. I grew up with people who 
supported my playing. I had access to neighborhood teams. My family 
provided enough financial support for me to play in after school 
programs that many girls either couldn't afford or didn't have the 
transportation to enable them to play. I had an athletic scholarship 
that gave me a college education and sports career opportunities. I had 
female role models to look up to starting in middle school, athletes 
like Julie Foudy and Mia Hamm who made me realize that there was room 
in the world of sports for women. They ignited my dream of becoming an 
Olympic athlete. Seeing women on television was very important to me. 
It opened my eyes to the possibilities of women's sports. It showed me 
what I could do and who I could be. And now I'm a professional athlete 
with the opportunity to make my living through sport as so many men 
have been able to do before me.
    But there are others who have not been as fortunate as I.

  <bullet> Girls comprise 49.03 percent of the high school population 
        (National Center for Education Statistics (NCES), 2003-2004) 
        but only receive 41.3 percent of all athletic participation 
        opportunities. (National Federation of High Schools (NFHS), 
        2004-2005)

  <bullet> Females comprise 57 percent of the college student 
        population (NCES, Fall 2002) but only receive 43 percent of all 
        college athletic participation opportunities. (National 
        Collegiate Athletic Association (NCAA), 2003-2004)

  <bullet> College female athletes receive $135 million or 25 percent 
        fewer scholarship dollars than college male athletes. (NCAA 
        Gender Equity Report, 2002-2003)

  <bullet> College female athletes receive $1.18 billion or 80.21 
        percent fewer sport operating budget dollars than college male 
        athletes. (NCAA Gender Equity Report, 2002-2003)

  <bullet> NCAA colleges spend $39 million or 103 percent fewer dollars 
        recruiting female athletes than they do on male athletes. (NCAA 
        Gender Equity Report, 2002-2003)

    Women are vastly underrepresented in sports industry and sports 
leadership positions:


                                        Male  (in         Female  (in
         College Positions               percent)           percent)

Athletic Directors                               81.5               18.5
Head Coaches of Women's Teams                    55.9               44.1
Head Coaches of Men's Teams                      98.0                2.0
Full-time Athletic Trainers                      70.0               30.0
Sports Information Directors                     87.8               12.2

Acosta and Carpenter, 2004



                                        Male  (in         Female  (in
      Sports-Industry Careers            percent)           percent)

Big 4 leagues                                    87.4               12.6
Other leagues/teams                              82.9               17.1
Sports marketing agencies                        71.7               28.3
Broadcast/media                                  91.7                8.3
Stadium/arena/track                              82.5               17.5
Corporations/manufacturers                       78.3               21.7

Sports Business Journal 2002 Salary Survey



                                                  Persons of Color  (in
            Sports-Industry Careers                      percent)

Big 4 leagues                                                        7.6
Other leagues/teams                                                  6.1
Sports marketing agencies                                            6.6
Broadcast/media                                                      4.2
Stadium/arena/track                                                  5.3
College                                                              9.3
Corporations/manufacturers                                          17.4

Sports Business Journal 2002 Salary Survey

    In general, the higher the status or salary of the position, the 
lower the percentage of females who are employed. Women of color are in 
double jeopardy with regard to sports industry employment, facing race 
as well as gender discrimination. We have so far to go.
     It's been 34 years since the passage of Title IX and 28 years 
since the passage of the Ted Stevens Olympic and Amateur Sports Act. 
Yet, discrimination still exists in schools, colleges and amateur 
sports. This discrimination is readily apparent to the public in my own 
sport. Baseball teams in high schools all over the Nation play on-
campus, on manicured fields with lights, dugouts, batting cages, locker 
rooms and toilet facilities while girls' teams are relegated to 
inferior public park fields with no amenities.
    Just this past year, despite the fact that women are still 
significantly underrepresented in the Olympic Games, the International 
Olympic Committee voted to eliminate women's softball from the 2012 
Games. There are few women in leadership positions in softball's 
national or international sport governing bodies despite the Ted 
Stevens Act which mandates that such opportunities be provided.
    Women's sport in general is virtually ignored by the press, 
receiving less than 7 percent of all sports coverage in the print and 
electronic media. If a female athlete chooses to be a mother, we are 
pushed out of sports because there are no support structures or player 
benefits to accommodate players with children. This is particularly 
important to me because I am expecting a son in April.
    Please know that I'm not here to complain. Rather, I am here to ask 
that Members of Congress address these issues because it is very 
difficult for athletes and parents to do so. We have the Federal 
mechanism in place to realize the promise of equal opportunity in sport 
if Congress makes sure that Title IX enforcement and oversight of the 
USOC and its national sport governing bodies happens.
    Sport is too potent a force in society and has too much of an 
impact on an individual's health, confidence and self-esteem for us not 
to do everything we can to ensure that sports girls and sportswomen are 
treated as well as sports boys and sportsmen.
    Your consideration of these comments is greatly appreciated.

    The Chairman. Thank you very much.
    Our last witness on this panel, Catherine Reddick. And, 
Catherine, I'm told I should be able to call you ``Cat'' 
Reddick.
    Ms. Reddick. Sounds good to me.
    The Chairman. Yes. And a gold medal winner in soccer in 
2004, and World Cup 2003 bronze medalist. We're delighted to 
have you with us.

     STATEMENT OF CATHERINE ``CAT'' REDDICK, U.S. OLYMPIAN

    Ms. Reddick. Well, thank you, Chairman Stevens, Senator 
Smith, and the Members of the Committee. My name is Cat 
Reddick, and I'm thrilled to have the opportunity to speak with 
you today about an issue that means a great deal to me. Today's 
hearing is very important, not just to me, but to millions of 
girls and women who deserve the opportunity to play sports. I 
want you all to know how much I appreciate your leadership in 
getting us together.
    I believe very strongly that if it weren't for an important 
civil rights law we call Title IX, I probably wouldn't be here 
today. As you know, that's the law that says schools have to 
provide the same opportunities to girls that they do to boys in 
everything they do, including sports.
    I grew up in Birmingham, Alabama, and I've been interested 
in sports for about as long as I can remember. My father played 
football at Virginia Tech, so my parents wanted sports to be a 
part of my life. I've always enjoyed watching the football 
powerhouses in the South, like Georgia and Florida, but, of 
course, being from Alabama, the one question you're always 
asked about is the football game we call the Iron Bowl, ``Who 
are you cheering for, Auburn or Alabama?'' It's no stretch to 
say that when you're talking about sports in Alabama, you're 
usually talking about football. And, as I said, I'm a huge fan, 
too.
    However, too often, growing up, the story would end there. 
I wanted to play sports, and I had the support of my parents, 
but the opportunities were limited. I had to play on boys 
soccer teams until my freshman year in high school. Being one 
of the only girls on the team wasn't always easy. Not all of my 
teammates wanted me there.
    I was so happy to finally play organized sports with girls 
in school, because it created so many possibilities for me. I'm 
very fortunate to have gone on to much success. I've had the 
chance to go to an outstanding college that I would not have 
been able to afford if it hadn't been for an athletic 
scholarship. I've been on a national championship team. I've 
traveled to places that many young girls in Birmingham can only 
dream about. I've had the support of sponsors like Nike, who 
have taken strong stands for women's sports and for Title IX. 
I've had the privilege to represent our country in the Olympics 
and play alongside national icons.
    But the most important experience, to me, has nothing to do 
with championships or medals. The best things I've gained from 
playing sports are the same things that any girl can gain by 
simply participating. I've gained self-confidence. I've 
embraced a healthy lifestyle. I've gained the experience of 
being part of a team. I've built friendships that will last 
forever. And I've learned about hard work, patience, and 
perseverance from the role models of the generations before me, 
the first generation of athletes who have benefited from Title 
IX.
    And just as pioneers such as Coach Erickson and many of the 
other people you will hear from today have done, it's now my 
obligation, and my passion, to ensure the opportunities I had 
are available to the generation of the girls to come.
    Soccer isn't the only thing in my life, but it's an 
important part. And the lessons I have learned are things I 
apply to everything in my life. That's why this is so 
important. While not every girl can have a scholarship, they 
deserve to learn the lessons and improve their lives. Please 
understand that this isn't easy. Even today, I have friends, 
mostly men, who think that Title IX should be limited. Where 
I'm from, some people still see football and basketball as the 
only sports that matter, and they somehow see women not worthy 
or able to participate in sports.
    However, I also want to say how very proud I am of the 
progress we've made. When I was growing up in Alabama, there 
wasn't much information or interest in girls soccer. But now 
the interest in the sport is growing faster than virtually 
anywhere in the country. The opportunities created by Title IX 
have generated enough interest and support in girls soccer that 
club teams are in full swing in Alabama today.
    So, that's what brings me here this morning. I want you to 
know that without Title IX, I don't think this would have been 
possible. I always had the desire to play sports, but I 
couldn't learn these important lessons until I had the 
opportunity.
    I urge you to fight to keep this important civil-rights law 
strong and make sure it's enforced. This is not the time to 
weaken the rule of fair play. Title IX has been so much for so 
many young girls. Somewhere in Alabama right now, there is a 
young girl out there wanting to play a sport and improve her 
life and inspire yet another generation to come. Please make 
sure that happens.
    Thank you.
    The Chairman. Thank you, Cat.
    Well, thank you very much. We've got another panel, so I 
would like to ask our colleagues to limit our comments to--or 
questions to 5 minutes for this panel, if that's agreeable.
    I want to tell you that, without any question, I believe 
we've reached a point now where we do have to schedule a 
hearing on Title IX, and this Committee will pursue that with 
the Administration, Department of Education, and others who 
should come and explain to us what they're doing.
    We also are going to have to hold a hearing on the Olympic 
Committee. And, as Donna knows, I'm chairman of the 
Interparliamentary Conference with China. I think we should 
make certain that China does not make the same mistake that's 
been made, as far as the actions taken by the Olympic Committee 
for the current year. By 2008, we ought to make sure that they 
include softball. I'm told men's baseball was also taken off.
    Ms. de Varona. It was.
    The Chairman. So, I--that ought to be easily remedied to--
in my opinion.
    Ms. de Varona. I doubt that.
    The Chairman. Both were mistakes.
    But I'm going to desist from asking questions, because I do 
want to hear the others. I do thank you all for your 
participation, and I must say to you that I'm appalled at the 
reaction that's taking place now in Title IX. It's sort of a 
replay of what went on before, though. It is just another 
generation saying, ``Hey, wait. We need more money for men. 
You're taking money from men's programs.'' That has to be shown 
it's not true.
    My comment to you, and all of you here in support of Title 
IX, is, you've got a lot of work to do, too, because I don't 
think there's enough talk at home and with husbands and 
boyfriends and fathers, and all of your friends who are women 
who are interested in sports, to understand the problem that 
exists out there. There are more women in college now, in 
universities, than there are men. However, there are groups of 
both men and women who do not intend to be involved in sports. 
I think we have to find some way to assure that there is access 
to sports participation when there's an allocation to women and 
men who do want to be involved, though it may vary per 
university. You may not agree with that. But I think the 
division ought to be on the basis of the people who are going 
to participate in sports, and make sure that there's equality 
in terms of that. If there are more women than there are men 
going to be involved in sports, they ought to get more money. 
And if there are less, they should recognize that they should 
have less, because there are more men involved. But I do think 
we have to find a way to get better enforcement of what Title 
IX meant. And that there would be equality in terms of 
availability of funds for women in sports, at all levels.
    And I, again, go back and honor Carol White, because she 
was the one that got the research done that proved what has 
happened since the school districts of the country abandoned 
physical education in kindergarten through the 12th grade. 
That, to me, is the worst mistake our country has ever made, 
and I think as we emphasize Title IX, we have to go back and 
emphasize the need for daily physical education for those 
children, particularly in the early years. Because unless they 
get the discipline, unless they get the understanding of how 
great it feels to exercise, they're not going to want to be 
part of your organizations as they get older.
    So, I thank you, all of you, for coming. I yield to my 
friend here, Senator Smith.
    Senator Smith. Thank you, Chairman Stevens.
    The Chairman. And, again, I congratulate your constituent, 
Nike, for all that they do to help us in these endeavors.
    Senator Smith. Thank you, Mr. Chairman. And thank you all 
for your enthusiastic testimony today and for your interest in 
sports for young women.
    Many of you have expressed the frustration about how Title 
IX is implemented. I'm not sure I heard anyone say how schools 
are making the segregation, if you will, as to monies for men 
versus women. Is it on the basis of who's participating, or 
revenues that they make, or how is it being done, or is it done 
in all kinds of different formularies?
    Ms. de Varona. Every school usually has a different 
formula. Most schools are not in compliance. What we've found 
on the commission was that--and all the Division--most of the 
Division I athletic directors on the commission said one of the 
issues of trying to have a fair resource allocation is, we've 
got this revenue-producing sport area over here----
    Senator Smith. Which would be basketball and football?
    Ms. de Varona. Yes, basketball and football. And we spent 
so much money trying to out-recruit each other, trying to out-
build stadiums for each other, trying to get the athletes, that 
we leave very little for the other sports. And oftentimes 
women's sports are sacrificed and men's sports are sacrificed. 
My feeling--when I asked the Division I athletic directors what 
they felt about this situation, because we tried to really 
address that--not as much as we address Title IX--but they 
said, ``You know, we're headed for a train wreck, and there's 
no brakes,'' because we have antitrust laws, we have all these 
things about employment, we have every--schools trying to 
compete with other. And when I did ask about, ``Hey, what if we 
did change Title IX? What if we changed the guidelines? If we 
could change them to anything that's fair, that's been proven 
and tested by the courts, would they guarantee me that we'd put 
men's wrestling back and women's gymnastics back?'' And, to the 
athletic director, they said, ``No, we couldn't guarantee 
that,'' because you have this profit-making arm in sports, and 
then you have the other sports available for men and women.
    Senator Smith. Setting aside the profit-making sports, is 
there any level at which just the spirit of Title IX, equal 
money for women's sports and men's sports--is it implemented 
fairly at any level?
    Ms. de Varona. I think that there are some universities, 
like Stanford, that are--fairly provide men and women 
recruiting money and opportunities. But they're very few.
    Senator Smith. But that would be the exception.
    Ms. de Varona. And I have to be clear about revenue-
producing. It doesn't mean that these schools are profit-
making.
    Senator Smith. I see.
    Ms. de Varona. What's happened with these Division I 
athletic programs is that they pour the money back into 
recruiting, or whatever, and they don't always operate on a 
profit level. Most of them don't. Many are in the debt of a 
million dollars per program, because they're trying to out-
compete each other.
    Senator Smith. Anybody else comment on that?
    Ms. de Varona. Christine Grant will have all those numbers 
at the next panel.
    Senator Smith. One other topic--I hate to bring it up, but 
I think we need to, given its prominence in the news these 
days--CBS News Health Watch recently cited a very alarming 
trend among girls, even as young as 9 years old, in using 
steroids for bodybuilding and athletic performance. You know, 
this is a plague in men's sports.
    Ms. de Varona. Yes.
    Senator Smith. And I fear, from what I've been told in 
preparation for this hearing, that it's becoming that for young 
women, as well.
    What's being done to stop this trend among female athletes?
    Ms. de Varona. Well, of course, we have the United States 
Anti-Doping Agency, which the Senator was involved in, and the 
World Anti-Doping Agency, that makes two. But again, only elite 
athletes really are scrutinized, as far as taking illegal 
performance-enhancing drugs. But the whole Olympic community 
has signed off on testing, and that testing mirrors what's 
happened internationally and required by the World Anti-Doping 
Agency, which the Senator was very much involved in supporting.
    Where the black hole is in a lot of these things, even in 
the statistics of how many young high-school girls participate, 
is in the high-school level, because a lot of schools do not 
test their high-school athletes. And the truth is, not all 
young teenagers are taking steroids to be great athletes; 
they're taking them because they want to be cut and buff and 
all those things. That's, again, why it was so important, when 
we get back to the major league baseball, that Congress and the 
Senate really pushed the players and major-league baseball to 
come to terms with the testing program. Because if you have 
these role models out there getting away with it----
    Senator Smith. Yes.
    Ms. de Varona.--kids say, ``OK, we're going to do it.''
    Senator Smith. My time's up, but is there anybody else who 
would have a comment on that?
    Ms. Dawes. I started getting drug tested probably when I 
was about 13 or 14, having made the national team, and being in 
a private club and competing for the United States. I think it 
would be important for kids that are competing in schools--if 
there is a problem of young kids taking steroids at the age of 
9-10 to try to surpass their competitors--for a testing policy 
to be implemented in the school system.
    The Chairman. Senator Smith?
    Senator Smith. I'm done.
    The Chairman. Senator Smith? Snowe. You're Smith. Snowe. 
Snowe.
    [Laughter.]
    Senator Snowe. You can see why I wasn't responding----
    The Chairman. Senator Snowe?
    Senator Snowe.--Mr. Chairman.
    I appreciate your testimony. I think it certainly sounds 
the alarm bells about what we need to do to ensure the full and 
complete enforcement and strict compliance with Title IX, as a 
starter. And also, regrettably, I think, too many people in 
this country are probably taking for granted, not--
underestimating the value, forgotten its value, not 
appreciating what has occurred that's manifested itself in your 
successes at the Olympic levels. And so, perhaps many people 
aren't even informed about the equality that has been achieved 
as a direct result of Title IX enforcement, those standards in 
our school systems both in high school and the post-secondary 
level. And so, I think, first and foremost, these hearings will 
help to serve to spotlight that value and the endless benefits, 
as you have all mentioned, with inspiring stories about--both 
in the economic, but also from the health benefits that can be 
derived.
    What can we do now, first and foremost, in conjunction with 
these hearings, what should we be doing, from a legislative 
standpoint or any other means, to make sure that not only we 
have the compliance, but what other measures should we be 
taking in order to buttress and reinforce Title IX so that 
we're not rolling backward the value and the benefits and the 
rights that have been derived?
    Ms. de Varona. If you want me to answer this----
    Senator Snowe. Yes.
    Ms. de Varona.--I think you have to look--you have--we have 
to have that hearing about Title IX specifically, and the 
clarification that Department of Education posted on the 
website. And also, Congress could take a look at the year-long 
study we did, and both the majority report and the minority 
report that was issued, as it relates to Title IX and 
opportunities in athletes. I think the Senator mentioned--
Senator Stevens--that we have to bring in the U.S. Olympic 
Committee and look what they're doing to promote women's sports 
and women in leadership positions.
    As one who comes from broadcasting, I feel that there's--
while we are dancers on the stage at the Olympics, and because 
women participate in the games in such a spectacular way and 
have forced the rights fees up to billions of dollars, still 
the ones that are making the decision about what airs, and 
when, are mostly men that have been in the business for 35 
years, that often carry, you know, traditional attitudes. I 
mean, look at the Super Bowl. We're going to have a Super Bowl, 
but FOX is going to run some kind of game with scantily clad 
women to compete with the halftime entertainment; rather than, 
you know, let's do a whole show on the great Olympians who are 
going to compete in Turin. So, I--you know, there's a broad--we 
have to attack it. We really do.
    And I think, also, get physical education back in school 
and make it exciting. That's mandatory. And get the sugar out 
of the classroom. And let's have healthy meals. I mean, we 
really are headed for a disaster, health-wise. And our young--
young children aren't going to live as long as we do, because 
of what's happening. And our young women are barraged with 
these images of how they have to look--thin, pretty, and 
skinny--to survive--or to thrive. So, I don't know how you 
change all of society, but I think it can start in the 
classroom and where we have some leverage and some influence.
    Senator Snowe. Anyone else cares to respond to that?
    Ms. Dawes. Well, I would ask that--number one, in 
addressing the issue of Title IX, is enforcing Title IX and 
addressing the issue with the clarification. But I would also 
ask that, because there is such a low percentage of college--
universities that are in compliance with Title IX that someone 
needs to step in and make sure that they're actually--not only 
being reprimanded, but that funding is taken away from them--
something other than words. Are there actions being taken if 
they're not in compliance with Title IX?
    Senator Snowe. Do we have accurate information regarding 
compliance, at the post-secondary level, or do we have--in the 
high-school level? I know that is a problem. I'm introducing--
--
    Ms. de Varona. Yes.
    Senator Snowe.--a bill again on that question----
    Ms. de Varona. Yes, we don't----
    Senator Snowe.--of collection.
    Ms. de Varona.--enough in the high-school level.
    Ms. Dawes. Not in the high-school level, but----
    Senator Snowe. You have nothing----
    Ms. Dawes.--the universities----
    Senator Snowe.--in the high schools. Do you have accurate, 
up-to-date information with respect to post-secondary 
education, in the college level?
    Ms. de Varona. Christine Grant, in the next panel, is----
    Senator Snowe. She will.
    Ms. de Varona.--going to----
    Senator Snowe. Yes.
    Ms. de Varona.--address that.
    Senator Snowe. OK. And that--I'm intending to address the 
high-school level.
    Ms. de Varona. Good.
    Senator Snowe. Because, obviously, that is a serious 
omission.
    Ms. de Varona. Right. Right.
    Senator Snowe. And that begins the process that speaks to 
the health issues and the benefits----
    Ms. de Varona. Yes.
    Senator Snowe.--and the physical education. And I think we 
ought to use Title IX to promote the benefits and what it 
means. Because, obviously, that is something that has really 
been left unsaid, all of the multidimensional benefits that are 
derived from Title IX. And perhaps we should use that as the 
platform to elevate all these other issues, to expose them and 
how it can serve not only to build the athletic skills and the 
positive spirit that is obviously a result of all of that, but 
also the health questions on obesity or reducing unwanted 
pregnancies or breast cancer.
    Ms. de Varona. Osteoporosis.
    Senator Snowe. Osteoporosis, drug dependency.
    Ms. de Varona. Right.
    Senator Snowe. I think we know that the list goes on.
    Ms. de Varona. Yes.
    Senator Snowe. And so, it's opportunities in all those 
arenas that we really have to promote and praise and make sure 
that people realize what this is all about.
    I thank you all.
    Dr. Richardson. May I----
    Senator Snowe. Yes----
    Dr. Richardson.--make a comment----
    Senator Snowe.--Dr. Richardson?
    Dr. Richardson.--Senator?
    Senator Snowe. Yes.
    Dr. Richardson. Statistics are showing that our Nation's 
poor eating habits and sedentary lifestyle choices are killing 
thousands of Americans every day. And money always seems to 
talk. So, if you look at the money values between obesity, the 
cost of obesity and Type 2 diabetes, which are correlated with 
sedentary lifestyle and poor eating habits, $250 billion a 
year----
    Senator Snowe. Good point.
    Dr. Richardson.--are spent.
    Senator Snowe. That's an excellent point. And you think 
about juvenile diabetes.
    Dr. Richardson. Right.
    Senator Snowe. I mean----
    Dr. Richardson. Younger----
    Senator Snowe.--now Maine is right up there. And one of----
    Dr. Richardson. But imagine--I'm sorry to interrupt, but 
imagine seeing teenage girls that are getting Type 2 diabetes. 
Teenagers. I mean, it's hitting our Nation at younger and 
younger age groups because of the choices that we all have made 
with regard to physical activity.
    Senator Snowe. Outstanding point, and so true, because it's 
a crisis, and one we have to recognize and the pivotal role 
that Title IX can play. Thank you all very much.
    Thank you.
    Ms. de Varona. Thank you. I would just like to recommend 
that all our long-form testimonies be submitted, be accepted 
for the record.
    The Chairman. All of the statements that we--have been 
presented--and the next panel, too--will be printed in the 
record----
    Ms. de Varona. Thank you.
    The Chairman.--as though read.
    Senator Dorgan? And Senator Dorgan has made a request that 
Lynette Mund come first in the next panel. We'd be happy to 
accommodate you.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, I've--with Senator McCain 
down the hall--have been at another hearing, so I regret I 
missed part of the testimony.
    I also, because Senator Inouye cannot be here--he was 
intending to be here--I want to do something that he was going 
to do, and that is to recognize Cathy McCullough, our counsel 
on the Consumer Affairs and Trade Subcommittees. Today is her 
last day with us, and she's been a talented and very committed 
counsel for this Committee for 3 years.
    So, Cathy, would you stand? And thank you.
    [Applause.]
    Senator Dorgan. We very much appreciate her work.
    I--let me just say something about our chairman. He struts 
around the Senate from time to time in an Incredible Hulk tie--
--
    [Laughter.]
    Senator Dorgan.--but all of us know he is no Olympic 
athlete. However, he has focused on the Olympics, as a member 
of the U.S. Senate, in a very specific way, in a very 
productive way, and I think the Senate has benefited by that. 
And I think those of you who have testified--Donna, especially 
you--understand the contribution he's made in these areas. And 
so, I appreciate that.
    I want to say that--I won't ask a question, because we want 
to get on to the other panelists, but I want to say that I've--
I think I've watched all of you in competition, and I'm 
enormously inspired by that. And thank you for being here.
    And let me say one other thing. I see Billie Jean King is 
here. Some many, many years ago, when I played a lot of tennis, 
I played Bobby Riggs.
    [Laughter.]
    Senator Dorgan. And did so with great expectations and was 
so soundly beaten. And then, about 3 years following that, I 
watched, on national TV, as Billie Jean King beat his clock. I 
mean, that was unbelievable. And I say that because I think as 
I look at all the athletics over the years, and events and 
things, I watched--Billie Jean, I watched you when it was kind 
of obnoxious from time to time to be pushing and fighting 
against the tide for women's sports. And you did it. And, boy, 
you deserve a lot of credit for it, and I'm really pleased to 
see you here.
    [Applause.]
    Senator Dorgan. And in tennis, sometimes when you can't 
beat someone, but someone else can, and you can beat that 
someone else, you call it an ``indirect win.''
    [Laughter.]
    Senator Dorgan. So, I'm going to claim an indirect over 
Bobby Riggs.
    [Laughter.]
    Senator Dorgan. Anyway, I--let me just say this, finally. 
Title IX is very important. And I, from time to time, have 
people who really don't like government and say to me, ``I hate 
government, hate regulations. I hate all these things. Hate 
government interference.'' And I always say, ``Well, let me ask 
about the interference of Title IX. Do you really hate the 
interference of Title IX?'' I think that was one of the most 
constructive pieces of interference the Federal Government ever 
did, to say to schools across this country, ``You can't keep 
doing what you're doing, saying to young boys, `Have a good 
time. We've got teams for you. Play basketball. Play all these 
sports. And good for you. We love you. You're going to be the 
toast of the community. And you young girls, sorry, tough luck. 
Athletics aren't for girls.' ''
    Federal Government said, in Title IX, you can't do that 
anymore. That's government interference. And God bless those 
that--I wasn't here at the time, but God bless those who 
decided to have that kind of interference to say you can't 
treat young girls like that. And I think because of that 
interference, because of Title IX, we see a much different 
country, much better opportunities, greater opportunities in 
athletics and other areas. And I think there is a problem from 
time to time of slow erosion, like the sands on a beach. And we 
need to take a look at Title IX. What's the enforcement? What's 
happening? What can we do to make sure that the intent of Title 
IX continues to exist for the next generation, as well?
    So, let me again just say, I'm inspired to have all of you 
here, and have been inspired to watch you. And I'm one voice 
who will join our chairman and others on this Committee who 
want to see that we make sure Title IX exists in the long term, 
enforced and strong, to do what we want for this country.
    Thank you very much.
    The Chairman. We thank you all. We'll turn to the next 
panel. I do want to thank you all for coming. And, Jennie, 
you're going to have to tell us what you bring into the world. 
OK?
    Ms. Finch. OK. It's a boy.
    The Chairman. Oh, good. Thank you very much.
    [Laughter.]
    The Chairman. Our next panelists are Dr. Christine Grant, 
associate professor at the University of Iowa, the Department 
of Health and Sport Studies of Iowa; Judith Sweet, the senior 
vice president for Championships and Education, National 
Collegiate Athletic Association; Tara Erickson is the head of 
the Women's--Head Women's Soccer Coach, University of Oregon; 
and Lynette Mund is the girl's varsity basketball coach at West 
Fargo High School, in Fargo, North Dakota.
    And it is my intention now to yield the chair to my friend 
Senator Smith, who has been involved in these matters. I will 
be able to stay, but not for the full time.
    We do--if you agree, we have agreed that Lynette would go 
forward first.
    Senator Dorgan. Mr. Chairman, I might inquire of Senator 
Smith, would you mind if I just make a comment about Ms. Mund, 
just for a moment?
    Lynette Mund is here from North Dakota, and I had asked 
that she be included in the witness list. She is a young woman 
that is a great story. She grew up in a very small town, just 
hundreds of people in that town, and became a standout 
basketball player, and then played on a Division II 
championship team three times in a row, three Division II 
championships in women's basketball, an extraordinary 
basketball player and a part of an extraordinary team story, 
but now is an English teacher and a coach for women's 
basketball in West Fargo, North Dakota. And I really appreciate 
her coming to Washington, D.C.
    Ms. Mund, thank you for being here.
    Ms. Mund. Thank you.
    Senator Smith [presiding]. Ms. Mund, we'll start with you.

STATEMENT OF LYNETTE MUND, TEACHER/HEAD GIRLS BASKETBALL COACH, 
                     WEST FARGO HIGH SCHOOL

    Ms. Mund. Good morning, Chairman Stevens and Members of the 
Committee. On behalf of the State of North Dakota, I would like 
to thank the Commerce Committee for hearing my testimony.
    My name is Lynette Mund, and I am a teacher and head girls 
basketball coach at West Fargo High School, in West Fargo, 
North Dakota. I am here today to testify to the importance of 
women's athletics and the struggles of providing athletic 
opportunities for young girls in rural communities. I will also 
discuss what I am doing to encourage more young girls to 
participate in sports in North Dakota.
    Girls and women have been involved in athletics--being 
involved in athletics has been a long-discussed issue. Many 
questions have been asked, such as, ``Can girls' bodies handle 
it? Are they mentally tough enough? And does it really make a 
difference in a girl's life?'' I am here as evidence that the 
answers to the previous questions are all yes. The fact that I 
am in Washington, D.C., testifying in front of the U.S. Senate 
Commerce Committee shows what a difference sports can make in a 
girl's life. Twenty years ago, I was a 12-year-old girl who was 
milking cows on my parents' dairy farm in rural North Dakota, 
and now I am here in our Nation's capital with some of the most 
influential people in our country listening to what I have to 
say. I have always loved sports, but I had no idea where they 
would take me and the confidence they would give me.
    At age 13, I was a skinny 8th grader who was stepping out 
on the basketball court to start my first varsity game. And by 
age 23, I was a three-time Division II national champion, a 
college graduate from North Dakota State University who had the 
confidence to leave North Dakota to move to the ``big city'' of 
St. Louis, Missouri.
    However, while I was in St. Louis, I always had a desire to 
move back to North Dakota and give back part of what I'd been 
given. That opportunity presented itself when I was offered the 
head girls basketball coaching position at West Fargo High 
School. Being back in North Dakota not only afforded me the 
chance to work with female athletes in West Fargo, but I was 
able to continue working with young girls back near my hometown 
of Milnor, North Dakota, population 700.
    As I stated earlier, I grew up on a dairy farm. I was a 
relatively naive young lady without much self-confidence. I had 
always dreamed of going to college, but I knew it would not be 
available--affordable without a college scholarship. I remember 
standing out in the milk barn and hearing on the radio that a 
local female basketball star, Pat Smykowski, had gotten a 
college scholarship to play basketball. And right then and 
there, I knew that I wanted--that's what I wanted to do. 
Thankfully, due to the efforts of many great women before me, 
the chance to participate in college athletics was available, 
something my mother and many women from her generation never 
had an opportunity to do.
    My mom used to talk about wanting to play sports, but not 
having the chance to compete. I sometimes sit and wonder how 
different my life would be without athletics. I wonder if I 
would have had the money to attend college, if I would have had 
the confidence to move away from my home State, and if I would 
have had the nerve to fly to Washington, D.C., and speak in 
front of U.S. Senators. However, all these happened--these 
things happened because I participated in athletics. As a 
result, I want to inform and inspire other young girls from 
rural North Dakota.
    One of the biggest challenges in rural North Dakota is that 
there are very few opportunities for athletics to improve--
athletes to improve their skills. That is why, over the last 12 
years, I have offered over 40 basketball camps in North Dakota 
and Minnesota. I am proud to have given over 800 young women 
the opportunity to participate in their first basketball camp. 
For many of these young girls, my camps are the only exposure 
they have to an athletic camp for the whole year. Over the 
years, I've had the chance to see some of my former campers 
continue their careers in high-school athletics, some of whom 
I've actually had to coach against. However, it was always 
worth it to see how far these young ladies have come and the 
confidence they now carry.
    At the time they attended camp, you should have seen their 
eyes when I told them they could have the chance to play in 
high school or college someday. Some of these girls did not 
even realize this was an option for them. By exposing these 
young girls to athletics at an early age, it allows them to see 
that sports is an option.
    This is relevant to the future of women's athletics, 
because equal access to sports in college only works if girls 
have the opportunity to get involved in athletics at an early 
age.
    Getting these young ladies involved is even more evident 
when I look at athletic participation numbers for girls in 
North Dakota. According to figures from the 2004-2005 North 
Dakota High School Activities Association, females made up 49 
percent of the student population in North Dakota; however, 
only 40 percent of the student athletes were females. It is one 
of my goals to bring this number closer to 49 percent. This is 
important to me, because I have firsthand knowledge of how 
athletics can have a positive effect on a young woman.
    I have been very fortunate to coach camps along with the 
high-school basketball team. This year, I have three seniors at 
West Fargo who will be receiving athletic scholarships and 
playing college basketball next fall. I've had the chance to 
watch these young ladies grow and mature since their freshman 
year. They exude a confidence that was not there 3 years ago. 
They know they have the ability to do whatever they want in 
life, and the self-assurance that they will be successful.
    By providing my basketball camps and coaching high-school 
basketball, I hope that other young girls from my home State 
realize that there are many opportunities to participate in 
athletics. And even a young girl from a town of less than 1,000 
people can be a national champion, college graduate, and a 
competent professional.
    Thank you very much for your time.
    [The prepared statement of Ms. Mund follows:]

   Prepared Statement of Lynette Mund, Teacher/Head Girls Basketball 
                     Coach, West Fargo High School

    Good morning, Chairman Stevens, Senator Inouye and Members of the 
Committee. On behalf of the state of North Dakota, I would like to 
thank the Commerce Committee for hearing my testimony.
    My name is Lynette Mund and I am a teacher and head girls 
basketball coach at West Fargo High School in West Fargo, North Dakota. 
I am here today to testify to the importance of women's athletics and 
the struggles of providing athletic opportunities to young girls in 
rural communities. I will also discuss what I am doing to encourage 
more young girls to participate in sports in North Dakota.
    Girls and women being involved in athletics has been a long 
discussed issue. Many questions have been asked, such as ``Can girls' 
bodies handle it?'' ``Are girls mentally tough enough?'' ``Does it 
really make a difference in a girl's life?'' I am here as evidence that 
the answers to the previous questions are all ``Yes''. The fact that I 
am in Washington D.C. testifying in front of the U.S. Senate Commerce 
Committee shows what a difference sports can make in a girl's life. 
Twenty years ago, I was a 12 year-old girl who was milking cows on my 
parent's dairy farm in rural North Dakota, and now I am here in our 
Nation's capital with some of the most influential people in our 
country listening to what I have to say. I have always loved sports, 
but I had no idea where they would take me and the confidence they 
would give me.
    At age 13, I was a skinny 8th grader who was stepping out on the 
basketball court to start my first varsity game, and by age 23, I was a 
3-time NCAA Division II National Champion and a college graduate from 
North Dakota State University who had the confidence to leave North 
Dakota and move to the ``big city'' of St. Louis, Missouri. However, 
while I was in St. Louis, I always had a desire to move back to North 
Dakota and give back part of what I had been given. That opportunity 
presented itself when I was offered the head girls basketball coaching 
position at West Fargo High School. Being back in North Dakota not only 
afforded me the chance to work with female athletes in West Fargo, but 
I was also able to continue working with young girls back near my 
hometown of Milnor, North Dakota which has a population of 700 people.
    As I stated earlier, I grew up on a dairy farm. I was a relatively 
naive young lady without much self-confidence. I had always dreamed of 
going to college, but I knew it would not be affordable without a 
college scholarship. I remember standing out in the milk barn and 
hearing on the radio that a local basketball star, Pat Smykowski, had 
gotten a college scholarship to play basketball, and right then and 
there I knew that was what I wanted to do. Thankfully, due to the 
efforts of many great women before me, the chance to participate in 
college athletics was available; something my mother and many women 
from her generation never had an opportunity to do. My mom used to talk 
about wanting to play sports but not having the chance to compete. I 
sometimes sit and wonder how different my life would be without 
athletics. I wonder if I would have had the money to attend college, if 
I would have had the confidence to move away from my home state, and if 
I would have had the nerve to fly to Washington D.C. all by myself and 
speak in front of U.S. Senators. However, all of these things happened 
because I participated in athletics. As a result, I want to inform and 
inspire other young girls from rural North Dakota.
    One of the biggest challenges in rural North Dakota is that there 
are very few opportunities for athletes to improve their skills. That 
is why over the last 12 years, I have offered over 40 basketball camps 
in North Dakota and Minnesota. I am proud to have given over 800 young 
women the opportunity to participate in their first basketball camp. 
For many of these young girls, my camps are the only exposure they will 
have to an athletic camp for the whole year. Over the years, I have had 
the chance to see some of my former campers continue their careers in 
high school athletics, some of whom I have actually had to coach 
against! However, it was always worth it to see how far these young 
ladies have come and the confidence they now carry. At the time they 
attended camp, you should have seen their eyes when I told them they 
could have the chance to play in high school or college someday. Some 
of these girls did not even realize this was an option for them. By 
exposing these young girls to athletics at an early age, it allows them 
to see that sports is an option. This is relevant to the future of 
women's athletics because equal access to sports in college only works 
if girls have the opportunity to get involved in athletics at an early 
age.
    Getting these young ladies involved is even more evident when I 
look at athletic participation numbers for girls in North Dakota. 
According to figures from the 2004-2005 North Dakota High School 
Activities Association, females made up 49 percent of the student 
population in North Dakota. However, only 40 percent of the student-
athletes were females. It is one of my goals to bring this number 
closer to 49 percent. This is important to me because I have first hand 
knowledge of how athletics can have a positive effect on a young woman.
    I have been very fortunate to coach camps along with a high school 
basketball team. This year, I have 3 seniors at West Fargo who will be 
receiving athletic scholarships and playing college basketball next 
fall. I have had the chance to watch these young ladies grow and mature 
since their freshman year. They exude a confidence that was not there 3 
years ago. They know they have the ability to do whatever they want in 
life and the self-assurance they will be successful.
    By providing my basketball camps and coaching high school 
basketball, I hope that other young girls from my home state realize 
that there are many opportunities to participate in athletics, and even 
a young girl from a town of less than 1000 people can be a National 
Champion, a college graduate, and a successful, confident professional.
    Thank you very much for your time.

    Senator Smith. We'll next hear from Tara Erickson. As I 
mentioned before, she is the women's soccer coach, University 
of Oregon, and just the second head coach at that university in 
history. So, we're making progress.
    Ms. Erickson. We are making progress, thank you.

    STATEMENT OF TARA ERICKSON, HEAD WOMEN'S SOCCER COACH, 
                      UNIVERSITY OF OREGON

    Ms. Erickson. Good morning, Chairman Stevens and Members of 
the Committee. My name is Tara Erickson, like you said, and I'm 
the head coach of the women's soccer team at the University of 
Oregon.
    As such, I want to say a special thank you to you, Senator 
Smith, who has shown great support for the university and who 
has been a strong leader on the issue we're discussing today: 
promotion and advancement of women in sports.
    Senator Smith, you should know that I spent a lot of time 
in your State as a kid. I grew up in nearby Puyallup, 
Washington, and played soccer pretty much all my life. I was 
fortunate enough to earn a scholarship to the University of 
Washington and play for Lesle Gallimore, the woman who helped 
guide my career. I earned a bachelor's degree in 
communications, but my first love remains soccer.
    When I graduated, there were more opportunities for me to 
play professional soccer in Europe than there were in the 
United States. I still love playing, and I played in Germany 
for a year, but I wanted to come home to the Pacific Northwest.
    Coach Gallimore, at UW, convinced me to consider a career 
in coaching. I earned a position on their staff, and once again 
Coach Gallimore became my mentor. I went on to my own head-
coaching job at Portland State, and now I'm at the University 
of Oregon.
    As a coach, I have been very fortunate to share my love of 
sport with my athletes. Coaching is a gift, and I do not take 
this blessing lightly. Players that I have coached have gone on 
to become productive members of our community, and I hope to 
have also become--I hope they also become ambassadors of 
opportunity and fair play. As a coach, I strive to always give 
as much on the sidelines as I did as a player. The kids deserve 
that, as does the institution I represent.
    But sometimes fair play and opportunity need an extra push, 
and that's why I'm a huge supporter of Title IX. This important 
civil-rights law has helped establish a level of fairness and 
equity in athletics. The law's impact, however, has extended 
far beyond the classroom and the athletic fields. It has 
created an entire generation of mentors who work with young 
girls and young boys. It has nurtured interest in sports to the 
point where the athletes sitting with me this morning have 
become the pride of our Nation and the envy of the rest of the 
world.
    It has created economic opportunities and job security for 
people like me. Soccer may be played today by younger women, 
like the amazing Cat Reddick, who we heard from earlier, but 
I'm still earning a living working with the game I love so 
much.
    Most importantly, it helps parents teach a simple, yet 
powerful, lesson to children, a lesson I will very soon teach 
my adorable baby boy, Maklain: When it comes to sports, 
everyone deserves a chance to play.
    We know sports have a positive impact on girls' lives. 
Studies show that girls who participate in sports are less 
likely to smoke or use drugs, they perform better in the 
classroom. Just this November, our team honored our first-ever 
Academic All American, Caitlin Gamble. I'm proud to know that, 
as a coach and mentor, I can help young women in this way.
    I'm also very proud to be a part of the University of 
Oregon. The university does a great job of making sure the 
opportunities we provide our male athletes are mirrored by the 
opportunities we provide our young women. They do more than 
simply follow the letter of the law; they embrace its spirit.
    Without Title IX, we don't know if there would be a women's 
soccer coach at Oregon or Portland State or Washington or 
anywhere else. I can't imagine what my life would be like 
without the opportunities I've had.
    Playing college athletics was one of the best experiences 
of my life, but it's even better for young women today. I love 
to share the experiences of what sports meant to me as an 
athlete in high school and the University of Washington. I can 
see the excitement in the eyes of the young athletes as you 
realize you're connecting with them, thanks in no small part to 
the fact that our soccer program was recently awarded two more 
scholarships. I feel the joy of knowing that an opportunity 
awaits a young girl who has worked so hard to get to this 
point. And I always--I also appreciate that it always hasn't 
been like this.
    I cannot begin to tell you how proud I am that the young 
athletes here this morning are choosing to speak out in support 
of opportunities for girls and women in sport. It's easy to 
look at the progress we've made and say we don't need Title IX 
anymore, but we can't look back. We must make sure the 
generations of mentors don't stop with the incredible athletes, 
the wonderful young women here today. Please fight to give 
young girls the opportunity to excel in anything they choose. 
Please fight to have them--please fight to help them have 
confidence and purpose, help them choose to participate, help 
them be athletes, help them be mentors, help them be strong.
    So, I thank you very much for giving me the opportunity to 
speak with you all today. I want to thank Senator Smith for 
being such a strong leader on civil-rights issues. I share the 
pride that we all have in women who have joined us. I know the 
title of the hearing is ``Promotion and Advancement of Women in 
Sports,'' but you must know that Title IX made this hearing and 
my testimony possible.
    Senators my message is simple. Please fight to keep Title 
IX strong.
    Thank you.
    [The prepared statement of Ms. Erickson follows:]

    Prepared Statement of Tara Erickson, Head Women's Soccer Coach, 
                          University of Oregon

    Good morning Chairman Stevens, Senator Inouye, and Members of the 
Committee. My name is Tara Erickson, and I am the head coach of the 
women's soccer team at the University of Oregon. As such, I want to say 
a special thank you to Senator Smith, who has shown such great support 
for the University and who has been a strong leader on the issue we're 
discussing today: Promotion and advancement of women in sports.
    Senator Smith you should know that I spent a lot time in your state 
as a kid, but I grew up in nearby Puyallup, Washington, and played 
soccer in high school. I was fortunate enough to earn a scholarship to 
the University of Washington and play for Lesle Gallimore, the woman 
who helped guide my career. I earned a bachelor's degree in 
communications, but my first love remained soccer. When I graduated, 
there were more opportunities for me to play professional soccer in 
Europe than there were in the United States. I still loved playing, and 
I played in Germany for a year, but I wanted to come home to the 
Pacific Northwest.
    Coach Gallimore at UW convinced me to consider a career in 
coaching. I earned a position on her staff, and once again Coach 
Gallimore became my mentor. I went on to my own head coaching job at 
Portland State, and now I'm at the University of Oregon. As a coach, I 
have been very fortunate to share my love of sport with my teammates. 
Coaching is a gift, and I do not take this blessing lightly. Players 
that I have coached have gone on to become productive members of our 
community, and I hope have also become ambassadors of opportunity and 
fair play. As a coach, I strive to always give as much on the sidelines 
as I did as a player. The kids deserve that, as does the institution I 
represent.
    But sometimes fair play and opportunity need an extra push and 
that's why I am a huge supporter of Title IX. This important civil 
rights law has helped establish a level of fairness and equity in 
athletics. The law's impact, however, has extended far beyond the 
classrooms and the athletic fields. It has created an entire generation 
of mentors who work with young girls--and young boys. It has nurtured 
interest in sports to the point where the athletes sitting with me this 
morning have become the pride of our Nation and the envy of the rest of 
the world. It has created economic opportunities and job security for 
people like me--soccer may be played today by younger women like the 
amazing Cat Reddick, but I'm still earning a living working with the 
game I love so much. Most importantly, it helps parents teach a simple 
yet powerful lesson to children--a lesson I will soon teach my adorable 
baby boy, Maklain: when it comes to sports, EVERYONE deserves a chance 
to play.
    We know sports have a positive impact on girls' lives. Studies show 
that girls who participate in sports are less likely to smoke or use 
drugs. They perform better in the classroom. Just this past November 
our team honored Caitlin Gamble, a midfielder and the first Academic 
All-American in our program's history. They have fewer health problems 
later in life. They learn how to work with teammates and can develop a 
feeling of confidence and a sense of purpose. I'm proud to know that as 
a coach and a mentor, I can help young women in this way.
    I am so very proud to be part of the University of Oregon. The 
University does a great job making sure the opportunities we provide 
our male athletes are mirrored by the opportunities we provide our 
young women. They do more than simply follow the letter of the law; 
they embrace its spirit. Without Title IX, we don't know if there would 
be a women's soccer coach at Oregon, or Portland State, or Washington, 
or anywhere else. I can't imagine what my life would be like without 
the opportunities I had.
    One of the things I enjoy most about my job at the University of 
Oregon is speaking with women and girls who visit us. Playing college 
athletics was one of the best experiences of my life, but it's even 
better for young women today. I love to share the experiences of what 
sports meant to me as an athlete in high school and at the University 
of Washington. I can see the excitement in the eyes of young athletes 
as you realize you're connecting with them. I can see the pride in the 
faces of their mothers as they think about the first-rate education 
their daughters can obtain here. Thanks in no small part to the fact 
that our soccer program was awarded two more scholarships, I feel the 
joy of knowing that an opportunity awaits that young girl who has 
worked so hard to get to this point. And I also appreciate that it 
wasn't always like this. If we lower the threshold for compliance with 
Title IX, those young women will still have the athleticism but may not 
have the opportunity. It's that simple.
    I cannot begin to tell you how proud I am that the young athletes 
here this morning are choosing to speak out in support of opportunities 
for girls and women in sport. It's easy to look at the progress we've 
made and say we don't need Title IX anymore. But we can't look back. We 
must make sure the generations of mentors don't stop with the 
incredible athletes--the wonderful young women--here today. Please 
fight to give young girls the opportunity to excel in anything they 
choose. Please fight to help them have confidence and purpose. Help 
them choose to participate. Help them be athletes. Help them be 
mentors. Help them be strong.
    If you keep Title IX strong, you won't be alone. Companies like 
Nike have helped support women's sports at every level. Specifically, 
Nike helps raise visibility and awareness of women's sports so the 
youngsters who play sports have role models to follow and dreams to 
pursue. In addition to its support for women's professional athletes, 
the company sponsored its first-annual Nike Women's Marathon in San 
Francisco in October 2004 in celebration of the 20th anniversary of 
women's first participation in the Olympic Games marathon.
    So I thank you very much for giving me the opportunity to speak 
with you this morning. I want to thank Senator Smith again for being 
such a stalwart leader on civil rights issues. I share the pride that 
we all have in the young women who have joined us. I know the title of 
the hearing is the promotion and advancement of women in sports, but 
you must know that Title IX made this hearing and my testimony 
possible. And like these amazing women, please fight to keep Title IX 
strong.

    Senator Smith. We will, Tara. Thank you.
    Ms. Erickson. Thank you.
    Senator Smith. We'll next hear from Judith Sweet. She is 
former NCAA president and long-time director of athletics at 
the University of California, San Diego. In 1991, she became 
the first, and only, female to serve as the NCAA president, the 
association's highest membership post.
    Judith?

     STATEMENT OF JUDITH M. SWEET, SENIOR VICE PRESIDENT, 
   CHAMPIONSHIPS AND EDUCATION SERVICES, NATIONAL COLLEGIATE 
                      ATHLETIC ASSOCIATION

    Ms. Sweet. Thank you, Senator Smith.
    Chairman Stevens, Senator Smith, and other distinguished 
Members of the Committee, and staff, thank you for inviting me 
to appear before you today. I also want to thank the Olympians, 
who you heard from previously, who have served as such 
outstanding role models, mentors, and leaders for girls and 
women in sport.
    I am Judith Sweet, and I currently serve as NCAA's senior 
vice president for championships and education services. I know 
what it's like to be on the wrong side of opportunity. I loved 
and played sports all of my life, but I never had an 
opportunity to play on a high-school team or a college team, 
not because of lack of skill or lack of interest or lack of 
enthusiasm, but there simply were no teams for me to play on. I 
was labeled a tomboy.
    During my 30-year tenure in the field of intercollegiate 
athletics, I have worked extensively on matters involving the 
growth of opportunities and advancement of both men and women 
in athletics. Through my work, I have seen firsthand the 
commitment of the NCAA and many universities to promote equity 
and, consequently, the resulting strides which have been made 
in the pursuit of gender equity on campuses and NCAA programs. 
I'm pleased with the progress, excited about the future, but 
wary of efforts to undo more than 3 decades of work.
    Thirty-four years ago, when Title IX first became law, 
there were no NCAA championships for women, there were no 
college athletic scholarships to speak of for women, and there 
were few opportunities for competition. The athletics 
opportunities for women were few, and the prospects for growth 
were dismal.
    According to a 1971-72 survey of NCAA member institutions, 
only 30,000 women were participating in sports and recreation 
programs, compared to over 170,000 men, more than five times as 
many men as women. What a difference 34 years and legislative 
impetus make. Throughout 2006, the NCAA is celebrating its 
centennial and the 25th anniversary of NCAA women's 
championships. Today, nearly 160,000 women are competing in 
sports at NCAA member institutions. As new opportunities for 
girls and women have been made available at the high-school and 
college levels, participation has escalated. The NCAA now 
offers 88 championships in 23 sports for men and women. Forty-
four of those championships are for women in 20 sports, and 
there are three coeducational championships. Growing interest 
has sparked the creation of additional NCAA championships since 
the 26 it first offered in 1981. In 1982, the women's Final 
Four drew just over 9,000 fans. In 2005, the women's Final Four 
drew a sellout crowd of over 28,000, just 1,000 less than the 
total number of women participating in college sports 34 years 
ago.
    The results of Federal law and the hard work of campus 
leaders have been impressive over the last 34 years, but there 
is much work still to be done. Although women comprise 54 
percent of the undergraduate student population at NCAA member 
schools, on average, they represent only 43 percent of the 
participating student athletes, receive only 38 percent of the 
operating dollars, and have only 33 percent of the recruiting 
budgets. The bottom line is, women are still the 
underrepresented gender in college sports, and less funding is 
devoted to the support of women's programs.
    In the years since it began sponsoring NCAA championships, 
the NCAA has taken a progressively more active role in 
assisting its members with gender-equity matters. In a perfect 
world, Title IX would not be necessary. There would be 
resources and will enough to do the right thing and meet 
everyone's needs. Even with more than 30 years of experience 
and the examples of the several hundred thousand female student 
athletes who have benefited from increased athletics 
participation for women, threats to the future of Title IX 
remain.
    The most recent, and one of the most pernicious, examples 
is the so-called additional clarification letter of 2005 issued 
by the Department of Education without prior announcement or 
opportunity for public comment. The additional clarification 
now allows institutions of higher education to rely solely on 
an Internet-based survey to measure interest in athletics among 
their students.
    A week ago, I had an opportunity to address 90 former 
college students who have had a significant interest in sports, 
men and women, just 1 or 2 years away from their college 
experience, and I asked them the question, ``How many of you 
respond to Internet surveys?'' Not one hand went up. 
Notoriously unreliable as valid instruments for measurement, 
these e-mail surveys would interpret a nonresponse the same as 
a ``no'' response; that is, as an indication that there is no 
interest in additional sports opportunities.
    This approach is contrary to the intent of Title IX itself, 
and appears to be designed to enable schools to show that 
females are not interested in participation, as opposed to the 
previous 1996 clarification, which allowed for surveys, but 
only as one of multiple components, as an assessment of 
interest.
    The effect of this recent survey approach potentially would 
be to freeze participation opportunities at their current 
level, or worse, to roll back the progress made over the last 
34 years. NCAA president, Myles Brand, and the NCAA executive 
committee comprised of university presidents from throughout 
the country, have notified the Department of Education of their 
deep concerns about the flaws in the additional clarification, 
and have asked that it be withdrawn, as has the Knight 
Commission on Athletics and the National Coalition of Women and 
Girls in Education, which consists of 50 organizations 
dedicated to keeping Title IX strong.
    The Department of Education reaffirmed the 1996 
clarification in 2003, and should not be allowed to lessen that 
commitment now. I am proud of how far we have come, but, as 
successful as this important Federal legislation has been, 
those who value fair, equitable treatment must remain vigilant 
to any, and all, threats that would undermine future progress.
    Thank you for the opportunity to appear before you today.
    [The prepared statement of Ms. Sweet follows:]

     Prepared Statement of Judith M. Sweet, Senior Vice President, 
  Championships and Education Services, National Collegiate Athletic 
                              Association

    Chairman Stevens, Ranking Member Inouye and other distinguished 
Members of the Committee, on behalf of the National Collegiate Athletic 
Association (NCAA), thank you for inviting me to appear before you 
today to discuss the advancement of women in athletics.
    I am Judith Sweet, and I currently serve as NCAA Senior Vice 
President for Championships and Education Services. I have been 
involved in intercollegiate athletics and higher education for more 
than 30 years as an athletic administrator, academician and in 
leadership roles within the NCAA. During my tenure in the field of 
intercollegiate athletics, I have worked extensively on matters 
involving the growth of opportunities and advancement of both men and 
women in athletics. The gap in opportunities and support remains 
greater for women and thus more needs to be done to ensure parity. 
Through my work, I have seen first-hand the commitment of the NCAA and 
many universities to promote equity and consequently the resulting 
strides which have been made in the pursuit of gender equity on 
campuses and NCAA programs. I am pleased with the progress, excited 
about the future, but wary of efforts to undo more than three decades 
of work.

That Was Then
    Thirty-four years ago, when Title IX first became law, there were 
no NCAA championships for women. There were no college athletics 
scholarships to speak of for women and there were few opportunities for 
competition. There was virtually no media coverage of the few 
competitive opportunities that did exist and certainly no television 
coverage. It was rare for newsstand publications to carry any type of 
article about a female athlete, and there were no publications devoted 
to women's sports. The star athletes in college sports were often 
household names, but none of them was a woman. The female athlete as a 
role model was virtually unheard of. A young boy wouldn't be caught 
dead wearing a jersey with a woman's name on the back, even if they had 
existed.
    The athletics opportunities for women were few; and the prospects 
for growth were dismal. According to a 1971-72 survey of NCAA member 
institutions, only 29,977 women were participating in sports and 
recreation programs, compared to 170,384 men--more than five times as 
many men as women. With numbers like that, it would be fair to wonder 
why college women would show any interest at all in athletics.

This Is Now
    What a difference 34 years and legislative impetus make. Throughout 
2006, the NCAA is celebrating its centennial and the 25th anniversary 
of NCAA women's championships. Today, nearly 160,000 women are 
competing in sports at NCAA member institutions. As new opportunities 
for girls and women have been made available at the high school and 
college levels, participation has escalated. The NCAA offers 88 
championships in 23 sports for men and women. Forty-four of those 
championships in 20 sports are exclusively for women and there are 
three co-educational championships. Growing interest has sparked the 
creation of additional NCAA championships since the 26 it first offered 
in 1981. The NCAA added women's rowing to the championships ranks in 
1996, followed by women's ice hockey and women's water polo in 2001 and 
women's bowling in 2003.
    In 1982 the Women's Final Four drew 9,531 fans. In 2005, the 
Women's Final Four at the RCA Dome in Indianapolis drew a sellout crowd 
of 28,937--just a thousand less than the total number of women 
participating in college sports 34 years earlier. It was the third time 
the Women's Final Four had appeared in a dome, but it was the 15th 
consecutive sellout in Women's Final Four history. Almost 700 media 
credentials were issued, and television covered the event from 
selection Sunday through the final buzzer.
    According to a recent membership survey, women now account for 43 
percent of the participants in intercollegiate athletics and receive 
about 45 percent of the scholarship dollars.
    Female athletes such as Dominique Dawes, Jennie Finch, Cat Reddick 
and Julie Foudy have, in fact, become household names in their own 
right. Elite female athletes play professional basketball in the WNBA. 
The women's teams from the United States are expected to bring home a 
sizeable haul of medals in most sports in every Olympics, and young 
girls--and boys--proudly wore Mia Hamm's No. 9 at the 1999 Women's 
World Cup and during the last two Olympics.
    While mainstream media still devotes much more attention to men's 
sports, the average bookstore now includes magazines and books 
highlighting the accomplishments of women in sports. Most of the 
student-athletes--female or male--competing in NCAA championships 
probably don't think twice about the NCAA offering championships for 
women and are unaware of how opportunities for women have changed over 
the last three decades.
    Clearly, Title IX has promoted opportunities for female athletes 
over the last 30 years.

More Work Remains
    In its charge to the Commission on Opportunity in Athletics in 
2001, the Department of Education acknowledged that extraordinary 
progress has resulted from the passage of Title IX. While I would like 
to think that this change would have taken place without Title IX 
because it was the right thing to do, the fact is that opportunities 
and support for girls and women in athletics are still not equitable 
with those provided for men, even though it is more than 30 years since 
the law was passed.
    The results of Federal law and the hard work of campus leaders have 
been impressive over the last 34 years, but there is much work still to 
be done to ensure that men and women who attend NCAA member schools 
have equitable access to athletics participation and receive related 
support. Although women comprise 54 percent of the undergraduate 
student population at NCAA member schools on average, they represent 
only 43 percent of the participating student-athletes, receive only 38 
percent of the operating dollars and have only 33 percent of the 
recruiting budgets.
    The bottom line is: Women are still the underrepresented gender in 
college sports and less funding is devoted to the support of women's 
programs.
    In the years since it began sponsoring NCAA championships, the NCAA 
has taken a progressively more active role in assisting its members 
with gender-equity matters. In 1992, after publication of the first 
NCAA Gender-Equity Study, the NCAA executive director established a 
gender-equity task force and charged it with determining ways in which 
the NCAA could assist institutions in achieving gender equity, 
examining NCAA policies to evaluate their impact on gender equity and 
recommending a path toward measuring and realizing gender equity in 
intercollegiate athletics. One of the recommendations of the task force 
was the creation of a sourcebook for NCAA members. That sourcebook, 
``Achieving Gender Equity: A Basic Guide to Title IX and Gender Equity 
in Athletics for Colleges and Universities,'' is now in its third 
edition. It is free to NCAA members and includes information on current 
case law, the basics of Title IX compliance, information about NCAA 
emerging sports and even promotional ideas for women's sports.
    This spring, the NCAA will conduct its 15th Title IX Seminar/Gender 
Equity Issues Forum since 1995. These now annual seminars are designed 
to assist NCAA member schools in understanding the intent of Title IX 
and to provide them with the necessary educational resources needed so 
they can comply with the law and address other gender equity issues. 
The Association has placed emphasis on institutional gender-equity 
plans through the Division I certification process and the Divisions II 
and III self-study processes. And, in 1994, legislation was passed that 
identified ``emerging sports'' for women that, while not yet sponsored 
by member schools in sufficient numbers to create a championship, 
counted in other important ways for institutions in terms of revenue 
distribution and sports-sponsorship numbers. The intent was to further 
increase the menu of sports available for women and encourage 
institutions to increase opportunities for women by sponsoring these 
sports, several of which have recently become NCAA championships as a 
result. Once again, as opportunities have been made available, 
participation by women has increased significantly.
    At the same time, the NCAA has increased the minimum number of 
sports sponsored for both men and women as part of an institution's 
Division I membership requirements. The Association's revenue-
distribution plan recognizes the value of broad-based programs, both in 
terms of the number of sports and the number of athletics grants-in-
aid. In 1996, the NCAA membership established a moratorium that 
precluded the discontinuation of any championships through 1998-99, 
thus protecting both men's and women's Olympic sports where sponsorship 
had declined. The moratorium was replaced in 1997 by legislation that 
specifies that even if sponsorship for an Olympic sport drops below 
minimum established requirements (40 schools for championships 
established before 1995 and 50 for those thereafter), the championship 
remains unless the membership specifically votes to dissolve it. This 
action shows strong support on the part of NCAA members to maintain 
Olympic sports as part of the NCAA championships program even though 
individual members may have chosen to no longer sponsor an Olympic 
sport.

Conclusion
    In a perfect world, Title IX would not be necessary. There would be 
resources and will enough to do the right thing and meet everyone's 
needs. Social legislation exists, of course, because we do not live in 
that perfect world. Even with more than 30 years of experience and the 
examples of the several hundred thousand female student-athletes who 
have benefited from increased athletics participation for women, 
threats to the future of Title IX remain.
    The most recent and one of the most pernicious examples is the so-
called ``additional clarification'' letter of 2005 issued by the 
Department of Education without prior announcement or opportunity for 
public comment on the additional clarification. The Department of 
Education now allows institutions of higher education to rely solely on 
an Internet-based survey to measure interest in athletics among their 
students. Notoriously unreliable as valid instruments for measurement, 
these e-mail surveys would interpret a non-response the same as a 
``no'' response that is, as an indication that there is no interest in 
additional sports opportunities. This approach is contrary to the 
intent of Title IX itself and appears to be designed to enable schools 
to show that females are not interested in participation as opposed to 
the previous 1996 clarification which allowed for surveys but only as 
one of multiple components as an assessment of interest. The effect of 
this recent survey approach potentially would be to freeze 
participation opportunities at their current level or worse to roll 
back the progress made over the last 34 years. NCAA President Myles 
Brand and the NCAA Executive Committee, the highest decision making 
body of the association comprised of university presidents from 
throughout the country, have notified the Department of Education of 
their deep concerns about the flaws in the additional clarification and 
have asked that it be withdrawn. The Department of Education reaffirmed 
the 1996 clarification in 2003 and should not be allowed to lessen that 
commitment now.
    The standard for measuring success for 2006 and beyond is the same 
as that set by a NCAA Gender-Equity Task Force in 1992. It defined 
gender equity in the following manner: ``An athletics program can be 
considered gender equitable when the participants in both the men's and 
women's programs would accept as fair and equitable the overall program 
of the other gender.''
    I am proud of how far we have come. Thanks to the efforts of people 
like Christine Grant, Donna de Varona and Dot Richardson, female 
student-athletes can hope for the same educational experience that 
males have enjoyed and benefited from for generations. Title IX is a 
real success story. But as successful as this important Federal 
legislation has been, those who value fair, equitable treatment must 
remain vigilant to any and all threats that would undermine future 
progress.
    Thank you for the opportunity to appear before you today.

    Senator Smith. Judy, do you know if--obviously, the poll 
you cited is demonstrably unscientific. Are there any 
scientific pollings that are accurate, reflecting public 
interest in these issues?
    Ms. Sweet. I'm not sure that I understand your question.
    Senator Smith. Well, you talked about the Internet poll----
    Ms. Sweet. Yes.
    Senator Smith.--and how answers were scored, a non-answer 
as a ``no,'' that there's not an interest. Has anyone done 
something more scientific than that?
    Ms. Sweet. The information that we have, after talking to 
university presidents, is that less than 10 percent of the 
students on their campuses respond to surveys that they do 
electronically.
    Senator Smith. I see.
    Ms. Sweet. Whether that's scientific or not, I think that 
it shows experience.
    Senator Smith. OK.
    Our next witness is Dr. Christine Grant, and she has served 
as director of the Department of Women's Intercollegiate 
Athletics at the University of Iowa from 1973 to 2000, and 
remains with the university as a professor in the Department of 
Health and Sport Studies programs.
    Dr. Grant?

          STATEMENT OF DR. CHRISTINE GRANT, ASSOCIATE 
 PROFESSOR, UNIVERSITY OF IOWA, DEPARTMENT OF HEALTH AND SPORT 
                            STUDIES

    Dr. Grant. Thank you, Chairman Stevens and Senator Smith 
and other distinguished Members of the Committee. Thank you for 
inviting me to testify today.
    We are having some problems, as usual, with PowerPoint, and 
we hope to have it corrected in just a moment or two, but I 
will begin.
    My name is Christine Grant. I am the former athletic 
director for our separate women's athletic department at the 
University of Iowa for 27 years. And today, I'd like to share 
with you some facts and figures.
    In slide 1, which you will hopefully see in a moment, the 
growth of girls' participation at the high-school level since 
1971 has risen to 42 percent. However, it is vital to 
understand that boys' participation numbers have also increased 
significantly. Boys, today, still have 58 percent of all 
athletic opportunities. The trend of increasing participation 
slots for men is also seen at the intercollegiate level.
    There's a myth that Title IX has caused the demise of some 
men's sports--specifically, wrestling and gymnastics--yet we 
have a slide that shows there has actually been a steady 
decline in the popularity of these two sports since the early 
1980s. You'll recall that in the decade of the 1980s, Title IX 
did not apply to athletics for a period of 4 years. So, the 
fact that many teams were lost in the 1980s is not because of 
Title IX. The reality is that the popularity of specific sports 
changes over the years. For example, look at the increase in 
the number of football teams and soccer teams. I also decided 
to track what was happening in women's gymnastics, and the 
declining popularity of that sport is clearly apparent.
    The General Accounting Office was asked to do an in-depth 
study of participation opportunities in both the NCAA and the 
NAIA. And their results show there was a net gain of 36 teams 
for men. That trend was supported by the data from the NCAA.
    Between 1988 and 2002, there was a net increase of 61 men's 
teams. However, I discovered that while Divisions II and III 
had experienced net gains for men's teams, Division I had 
experienced a net loss, and it was in Division I-A where the 
greatest net losses have occurred. I believe that million-
dollar salaries for football and men's basketball, coupled with 
an arms race in the building of superb facilities, may well be 
related to the loss of some men's sports in Division I-A.
    Another slide shows the enormous population from which we 
recruit women athletes. Only 163,000 female student athletes 
currently get the chance to compete at the university level. If 
we are not adding sports at that level, it is not because of a 
lack of interest or a lack of ability.
    Tracking the financial situation for the last 30 years 
shows that the lack of progress toward increased financial 
support for women was not caused by lack of money. The money 
was there. The commitment was not. In Division I-A, for every 
new dollar that went to women's sports until 1993, three brand-
new dollars went to men's sports. And after 1993, for every new 
dollar spent on women's sports, two brand-new dollars have gone 
to men's sports.
    In 1993, a new researcher factored out the administrative 
costs. And in this slide you'll note that while the expenses of 
men's athletics currently are more than double those for women, 
the administrative costs also far exceed the costs for women's 
programs.
    A troubling trend is the increasing expenditures in 
football and men's basketball. Football expenditures have 
increased threefold since 1985; and men's basketball expenses, 
almost fourfold. At the same time, the deficits in athletics 
programs have been increasing at a rate that is very troubling. 
In Division I-A, the average deficit has doubled in 10 years, 
to $4.4 million per year.
    This leads us to examine the expenditures of football and 
men's basketball. In 1985, the budgets for these two sports 
took up 49 percent of the men's athletic budget, but, in the 
latest analysis, these two sports now consume almost three-
quarters of the men's budget, 74 percent. Where does that leave 
men's so-called ``minor sports''? Very definitely on the short 
end. It is not Title IX that is causing this problem; it is the 
insatiable appetites of football and men's basketball.
    The latest NCAA gender-equity figures show that in Division 
I-A the number of female athletes is 8 percentage points below 
the percentage of female undergraduates, and the Division I-
AAA, it is 7 percent. But in the other divisions, this is an 
area that warrants real attention.
    In the area of scholarships, the figures are better. In the 
recruiting area, Division I-A is well behind the other 
divisions and subdivisions. In the total-expense column, 
Division I-A is 14 percent below the participation ratio, while 
the other subdivisions and divisions are doing well.
    The final slide shows a 2003 poll by the Wall Street 
Journal and NBC News. Sixty-eight percent of the public approve 
of Title IX, and 66 percent approve, even if it means, quote, 
``cutting back on men's athletics to ensure equivalent athletic 
opportunities for women.'' The public recorded a 70 percent 
rating for strengthening the law or making no changes to the 
law.
    I thank the Committee for giving me this opportunity. And I 
would like to take a moment to thank the other members of the 
National Girls and Women in Sports Day Coalition. That would be 
the American Association of University Women, the Girl Scouts 
of America, Girl, Inc., GWS, National Women's Law Center, 
Women's Sports Foundation, and the YWCA.
    Thank you very much.
    [The prepared statement of Dr. Grant follows:]

    Prepared Statement of Dr. Christine Grant, Associate Professor, 
       University of Iowa, Department of Health and Sport Studies

    Chairman Stevens, Ranking Member Inouye and other distinguished 
Members of the Committee, thank you for inviting me to testify before 
you today.
    I am Christine Grant, former Athletic Director for our separate 
women's athletic department at the University of Iowa for 27 years and 
currently an Associate Professor in the Department of Health and Sport 
Studies.
    Today I would like to do three things: (1) present you with some 
facts and figures that describe the progress we have made since 1972 
for women in sport in our Nation, (2) briefly describe some financial 
trends, especially in football and men's basketball at the 
intercollegiate level, and (3) note areas where institutions in 
specific divisions are doing well and where institutions in divisions 
need to consider providing additional support.
    In slide 1, the growth of girls' participation at the high school 
level since 1971 has risen to 42 percent of the athletic population. 
However, it is also important to note that boys' participation numbers 
have also increased significantly, from 3.7 million to over 4 million. 
Today, boys still have 58 percent of all athletic opportunities.
    The trend of increasing participation slots for men is also seen at 
the intercollegiate level. In the NCAA, men in 1989 had approximately 
176,000 opportunities, and by 2004 that number had increased by about 
42,000.
    There is a myth circulating around the Nation that Title IX has 
caused the demise of some men's sports, specifically wrestling and 
gymnastics. Yet, the next slide shows that there has actually been a 
significant and steady decline in the popularity of these two sports 
since the early 1980s. You will recall that in the decade of the 1980s, 
Title IX did not apply to athletics for a period of 4 years due to the 
Supreme Court's decision in Grove City College v. Bell. \1\ 
Additionally, there was little, if any, enforcement of the law even 
when it was restored in 1988 when Congress passed the Civil Rights 
Restoration Act of 1987. \2\ So, the fact that many teams were lost in 
the 1980s is not because of Title IX. The reality is that the 
popularity of specific sports changes over the years. For example, look 
at the increase in the number of football teams and soccer teams in 
that same time frame. Between these two sports, 333 teams were added 
for men; teams that were lost in wrestling and gymnastics totaled 182.
---------------------------------------------------------------------------
    \1\ 465 U.S. 555 (1984).
    \2\ Pub. L. 100-259, 102 Stat. 28 (1988).
---------------------------------------------------------------------------
    I also decided to track what was happening in women's gymnastics. 
As you see, the declining popularity of that sport is clearly apparent.
    The General Accounting Office was asked to do an in-depth study of 
participation opportunities in both the NCAA and the NAIA. Their 
results show that in an 18-year period, there was a net gain of 36 
teams for men, which constituted a 5 percent increase in participation.
    That trend was supported by the data from the NCAA. Between 1988 
and 2002, there was a net increase of 61 men's teams. After further 
research, however, I discovered that while Divisions II and III had 
experienced net gains for men's teams, Division I had experienced a net 
loss. Upon further investigation, I discovered that it was in Division 
1-A where the greatest net losses had occurred. This is surprising 
since these institutions have by far the largest budgets. Time does not 
allow me to expand on this issue except to say that I believe that 
million-dollar salaries for football and men's basketball, coupled with 
an arms race in the building of superb facilities, may well be related 
to the loss of some men's sports in Division I-A. For example, at Iowa, 
last year we paid our football coach over $2 million; we paid the 
President of the University $300,000.
    The next slide shows the enormous population from which we recruit 
our intercollegiate athletes. Only 163,000 female student-athletes 
currently get the chance to compete at the university level. Obviously, 
we could add hundreds of women's teams from this large population. If 
we are not adding sports at the collegiate level, it is not because of 
a lack of interest or ability.
    Tracking the financial situation for the last thirty years shows 
that the lack of progress toward increased financial support for women 
was not caused by lack of money; it was caused by lack of commitment. 
The money was there; the commitment was not. In Division I-A, for every 
new dollar that went to women's sport after 1972 till 1993, three new 
dollars went to men's sports. Let me repeat that: for every new dollar 
that went to women's sports, three new dollars went to men's sport. 
Since 1993, for every new dollar spent on women's sports, two new 
dollars have gone to men's sports. This allocation is not a trend that 
lends itself to creating equal opportunities and comparable treatment 
for our female student-athletes. On the contrary, it exacerbates the 
problem.
    In 1993, a new researcher decided to try to factor out the 
administrative costs. You will note that while the expenses of men's 
athletics currently are more than double those for women, the 
administrative costs also far exceed the costs for women's programs.
    A troubling trend is the increasing expenditures in football and 
men's basketball. You will note in the next slide that men's football 
expenditures have increased threefold since 1985 and men's basketball 
expenses almost fourfold.
    At the same time, the deficits in athletic programs have been 
increasing at a rate that is extremely troubling. In Division I-A, the 
average deficit has doubled in ten years to $4.4 million. This is at a 
time when universities as a whole are struggling to finance academic 
programs. All other divisions are facing the same trend in deficits.
    This leads us to examine the expenditures of football and men's 
basketball. In 1985, the budgets for these two sports took up almost 
half of the men's athletic budget--49 percent. In the latest financial 
analysis, these two sports now consume almost three quarters of the 
men's budget--74 percent.
    Where does that leave men's so called ``minor'' sports? On the 
short end. Let me rephrase what is happening; football with an average 
squad of 117 in Division I-A is spending about half a percentage point 
on each student-athlete for a total of 56 percent of the men's budget; 
basketball with 15 players is spending over 1 percent on each student-
athlete for a total of 18 percent of the men's budget. The other men's 
sports have only 21 percent of the budget for as many as 200 student-
athletes. It is not Title IX that is causing this problem; it is the 
insatiable appetites of football and men's basketball.
    The latest NCAA Gender Equity figures show that in the area of 
participation, Division I has been offering a greater percentage of 
opportunities. In Division 1-A, the percentage of female athletes is 8 
percent below the percentage of female undergraduates, and in Division 
1-AAA, it is 7 percent below the percentage of female undergraduates. 
However, it is clear that those in Division 1-AA, II and III need to 
address this issue to determine if their institutions are being 
responsive to the increasing interests and abilities of their female 
students.
    In the area of scholarships, the figures are better, but that is 
because they only have to match the participation rates, which, as I 
mentioned above, are still below where they should be.
    In recruiting, Division 1-A is well behind the other divisions and 
subdivisions. This is an area that needs a lot of attention.
    So too is the disparity in Division 1-A in the total expense 
column. Division 1-A is 14 percent behind the participation ratio while 
the other subdivisions and divisions are doing well. Again, it appears 
that the most lucrative programs in the Nation are not committed to 
equitable treatment for male and female student-athletes.
    The final slide shows a 2003 poll by the Wall Street Journal and 
NBC News. It notes that 68 percent of the public approve of Title IX. 
What is more surprising to many is the result that ``cutting back on 
men's athletics to ensure equivalent athletic opportunities for women'' 
received a 66 percent approval rating. The public recorded a 70 percent 
rating for strengthening the law or making no changes to the law.
    In conclusion, the facts show that both men's and women's 
opportunities to play sports have increased since Title IX was enacted 
in 1972, with men and boys still receiving more opportunities than 
women and girls today. While some men's and women's teams have 
decreased in number, this decline is not because of Title IX, but 
rather because the popularity of specific sports changes over the years 
for various reasons. With respect to expenditures, educational 
institutions are not even close to providing equal financial support to 
women, and men's budgets are being dominated by football and 
basketball, which leaves little money for all other men's teams. The 
recruiting budgets for female athletes are particularly dismal and need 
to be increased. Title IX and other gender equity laws must be strongly 
enforced if we are to continue moving forward towards true equality for 
women and girls in sports.

    Senator Smith. Dr. Grant, you talk about how the major 
sports are hurting men's other sport programs. Obviously, I 
think you're testifying that they have also dramatically harmed 
the availability of dollars for women's sports, as well.
    Dr. Grant. That's correct, Senator. The expenses of 
football and basketball have gone up at an alarming rate.
    Senator Smith. You know, it strikes me, as I've listened to 
all of you, that Title IX plays such a pivotal role, when it 
comes to public dollars, to making opportunity available to 
young women. But it seems that pressing down on that noble 
ideal is a marketplace that is making this very hard to manage. 
And, obviously, I'm looking for solutions. We do need to have a 
hearing specifically on Title IX and what the Department of 
Education is proposing, because I suspect that if we didn't 
have this law, we would not have any of these women's sports, 
that it would just all be market-driven.
    I think one of the values of public education and public 
institutions is to give everybody a place at the starting line. 
But then, how they come to the finish line--we begin running 
toward the goal line, which is a marketplace, and somehow we've 
got to find that balance, but we have got to make clear to the 
Department of Education that we need to not step back from 
Title IX, but to strengthen it.
    But, you know, having said that--I've told you how I feel 
and how I will vote, but I'm wondering what it's doing to women 
who you recruit, Tara, and how they look at spending their time 
in athletics when they may or may not see successful women's 
soccer leagues or see an opportunity, a market opportunity, 
awaiting them after college.
    Ms. Erickson. Yes, I think that I can speak, obviously, 
only on what I do at my university and, you know, what the 
attraction is for these young ladies to come there. And, you 
know, where we stand right now, and where I feel about our 
women's soccer team, I feel that we are supporting women's 
athletics. The NCAA just added two additional scholarships. And 
a great example for our team and our university is that both of 
those scholarships will be added and not looked at toward the 
future. So, you know, I'm operating here in the present and 
obviously trying to give these girls the opportunity that I had 
as a student athlete. So, I feel good about what we're doing, 
but I do see the growing larger trend that both of these ladies 
just spoke about, as well.
    Senator Smith. Do you find that some women just won't? I 
guess the ones that play, they just love to play and compete, 
but is it a depressant to your effort to expand this that there 
is not a professional league for them later?
    Ms. Erickson. Yes, I think, you know, that example of, ``We 
love to play the game, no matter what, and we will continue to 
play the game''--but the opportunity is, for sure, something 
they're looking at further down the road. And, like I said, I 
had to go overseas to play, because the women's professional 
league was not here. And, again, it's not here now. So, yes, 
looking further on down the road, maybe then we all look and 
see that, you know, ceiling above us. And that's kind of 
holding us down.
    Senator Smith. Well, the truth is, for young boys, speaking 
for myself--I'm not young anymore, but, I mean, I thought I was 
supposed to replace Bob Cousy, with the Celtics. Didn't happen 
that way. And, frankly, a lot of the professional opportunities 
are illusory for a vast majority of elementary, junior-high, 
high-school, and college athletes.
    Ms. Erickson. But it's still nice to have that opportunity 
to look toward. And it's a goal that you can have in your mind, 
whether you achieve it or not.
    Senator Smith. How about the media? They're profit-making 
enterprises, as well. There's clearly a bias toward men's 
sports, as against women's sports. Do you ever complain to them 
about a little more equal treatment? We complain to the media a 
lot, too----
    [Laughter.]
    Senator Smith.--and I just wanted to give you that 
opportunity--that chance.
    Ms. Erickson. For me, particularly? I mean, I see that the 
media has done plenty of great things for women's athletics. 
And, you know, you look at the Olympics, and you see some of 
the moments that women have been given. But, yes, it's far 
outweighed by the men's. And, you know, the more that the media 
can do, I think then there will be more support by women, you 
know, watching women compete in athletics, and there'll be more 
support by men watching women compete on the TV.
    So, if the opportunity comes up, yes, I think that we would 
embrace that. I don't know if I have the spotlight to gather 
that attention right now.
    Senator Smith. You do. All these cameras are on you.
    [Laughter.]
    Ms. Erickson. OK, bring it on.
    [Laughter.]
    Senator Smith. Dr. Grant, in your experience, are revenues 
generated from basketball and football ever shared with the 
women's programs?
    Dr. Grant. There is a myth across the country that football 
and basketball, especially in Division I-A, have more money 
than they know how to spend. Miles Brand was on our campus 
about a year ago, and he was asked that question. He said, ``If 
there are 12 universities in the entire USA that are bringing 
in more money than they're spending, we will be lucky.'' The 
vast majority of athletic programs are in deficit spending, and 
these deficits are growing significantly every single year. And 
it's being fueled by football and men's basketball. Last year, 
we paid our football coach over $2 million. We paid the 
president of our university $300,000.
    Senator Smith. To be clear, you're saying not only are 
men's sports not profitable, but, specifically, with few 
exceptions, men's basketball and football are unprofitable 
ventures.
    Dr. Grant. At most universities, yes, that is correct.
    Senator Smith. So, clearly they're not sharing anything 
with the women's programs.
    [Laughter.]
    Dr. Grant. Well, the women's program, in many instances, 
gets institutional support.
    Senator Smith. How do these universities make up the 
deficits that are created in this, as you termed it, an ``arms 
race'' for stadiums and coaches and----
    Dr. Grant. Frankly, I don't know.
    Senator Smith. Comes out of some budget, I suspect.
    Dr. Grant. Yes.
    Senator Smith. Judith, as you think about our hearing 
coming up, on Title IX, what's the outcome you want to see?
    Ms. Sweet. First outcome would be, as you've heard from so 
many of us today, not to weaken Title IX in any way, to do away 
with the additional clarification that was added to the 
Department of Education website without an opportunity for 
input or public comment. But, most importantly, strong 
enforcement of Title IX. As has been indicated by so many of 
the speakers today, we've made progress, but there is a lot 
more that needs to be done, and we need to be vigilant, and we 
need to make sure that universities and high schools throughout 
the country are committed to making sure that young girls have 
the same opportunities to participate and engage in healthy 
athletic competition that young boys have.
    Dr. Grant. If I may----
    Senator Smith. Yes.
    Dr. Grant.--comment, Senator Smith? I also would like to 
see the NCAA attempt to get us together in order to reduce some 
of the expenditures, especially in Division I. We have some 
excessive practices that could be eliminated without in any way 
affecting the level of competition, and I would very much like 
to see that done.
    I also would like to see Congress consider an exemption to 
the antitrust laws, because these salaries are totally and 
utterly out of control for football and men's basketball.
    Senator Smith. Lynette, I don't want you to feel ignored 
here, but as I ask this question, I want to make it clear a lot 
of young men, young boys aren't interested in sports either. 
But how do you reach out to young girls who are not interested 
in sports? What do you do for them?
    Ms. Mund. Well, I just like to give them the opportunity. 
And--just to show them kind of what opportunities there are for 
women and what it can do for a person. And, you know, they can 
make the choice if they're interested or not. And just 
providing the opportunity is kind of the main thing. And there 
are going to be some girls that aren't, but there are going to 
be some girls, especially in, you know, small-town North 
Dakota, that, you know, when they're 4th graders, they don't 
really know much about basketball, but I can at least introduce 
it to them, and then they have the choice whether they want to 
participate or not.
    Senator Smith. You obviously encourage them for just 
physical activity and feeling well and healthy, and those are 
values, in themselves.
    Ms. Mund. Yes.
    Senator Smith. I think the same thing should be done for 
young boys. I mean, a lot of young boys hanging around with my 
son are not the least bit interested in sports. So, there's 
clearly a value, separate and apart from competing on a team.
    Well, you've all been tremendous to come here and to help 
us celebrate this important day. I don't apologize for my 
colleagues, because I know how we're torn this way and that. 
When you arrive to work in the Senate, you're on a treadmill, 
and you have many committees and many responsibilities, 
particularly some of these more senior members. So, I'm sorry 
you were just stuck here with me, at the end. But you have 
added measurably to the public record, and you've made your 
case, and we've got our work to do. And to all who have 
attended, particularly our witnesses, and those who have 
listened in support of young women, girls, women's athletics, 
thank you for being here.
    With that, we're adjourned.
    [Whereupon, at 11:50 a.m., the hearing was adjourned.]

                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii

    Today marks the 20th anniversary of the National Girls and Women in 
Sports Day, which commemorates the importance of women and girls in 
athletics. This day was chartered by Congress 14 years after enactment 
of the Title IX program, and the witnesses before us today are a 
testament to the success and strength of that program.
    We are awed by the athletic achievements of our witnesses, but it 
is their professional accomplishments, the lives they are leading, and 
the examples they are setting, that are the true hallmark of Title IX. 
They are extraordinary athletes, but more importantly, they are 
extraordinary role models.
    Equality in sports, from grade school to college, has helped to 
open up a world of educational and professional opportunities for 
women. More importantly, it has helped girls and young women improve 
their physical and mental health as well as their overall self image. 
While the women who have joined us today are shining examples of Title 
IX's success, I can guarantee that there are many more to come.
    I understand that the Department of Education issued new guidelines 
last year for the Title IX program that have raised concerns by the 
National Collegiate Athletics Association (NCAA). While I understand 
efforts to perfect programs, I do not support efforts to turn the clock 
back. I am interested in knowing what our witnesses think about those 
guidelines.
    I would also like to acknowledge the historic contributions of our 
dear friend, the late Patsy Mink, the former Congresswoman from Hawaii. 
She was one of America's most effective advocates for women's rights. 
Her vigilance and dedication helped make Title IX the success it is 
today, and we are all most grateful.
    I congratulate our witnesses for their many achievements, and I 
thank them for inspiring so many others. In recognizing the women 
before us, I also want to recognize Cathy McCullough, our counsel for 
the consumer affairs and the trade subcommittees. Today is her last day 
with us. She has been a talented and committed counsel for the 
Committee for 3 years.
    Cathy is so committed to the work of this Committee and the issues 
surrounding Title IX, she changed her plans in order to prepare this 
hearing. I want to thank her for all of her efforts.
                                 ______
                                 
Prepared Statement of Hon. Maria Cantwell, U.S. Senator from Washington

    Mr. Chairman and Mr. Co-Chairman, I want to thank you for holding 
this important hearing on the promotion and advancement of women in 
sports. It is fitting that this hearing is to take place on the 20th 
anniversary of National Girls and Women in Sports Day.
    Before I begin, I want to congratulate the University of Washington 
women's volleyball team. In December, they won their first-ever NCAA 
Division I Women's Volleyball Championship, thanks to a lot of hard 
work and passion. The people of Washington are so proud of your talent 
and your teamwork.
    Title IX, the law that reduced barriers for women and girls to 
participate in sports, is the reason we have celebrated National Girls 
and Women in Sports Day for the past 20 years. And it continues to 
work, increasing women's participation in sports at high schools, 
colleges, and universities. Just look at the numbers. According to the 
NCAA, in 1971, the year before Title IX of a larger education act 
became law, there were roughly 30,000 women participating in athletics 
at colleges and universities. In 2001, that number had increased by 
more than fivefold. The increase has been even more dramatic at the 
high school level. In 1971, 294,000 girls participated in high school 
athletics; by 2002, the number rose to 2.8 million. Still, while these 
great advances owe much to Title IX, women and girls continue to face 
significant obstacles in athletics.
    In fact, Title IX is the reason we have brought together a group of 
world-class women athletes today. Again, I want to thank the Chairman 
and Co-Chairman for convening this hearing to discuss a recent rule 
change that will essentially roll back this landmark legislation.
    Last March, the Department of Education announced that it would 
allow schools merely to conduct an email survey of students in order to 
demonstrate Title IX compliance. The new change would bypass the 
opinions of coaches and other administrative staff at colleges and 
ignore participation rates in surrounding high schools or private 
leagues. I am concerned that we're giving schools a free pass to 
maintain the status quo, or even worse, seriously weaken Title IX 
protections, at a time when we should be seeking proactively to provide 
women and girls with equal sports participation opportunities.
    Research demonstrates a relationship between sports participation 
and academic achievement among boys and girls. In other words, 
participation positively shapes a young person's educational outcomes. 
Title IX has not only opened the door for millions of women and girls 
in sports, it has also established a domino effect of high achievement 
in the classroom and ultimately, the boardroom. Participation in sports 
builds character and provides opportunities for children to develop 
skills. Success anywhere demands self-discipline, perseverance, hard 
work, sacrifice, teamwork, respect for rules, and interpersonal skills.
    While the number of women and girls participating in sports has 
increased dramatically in the three decades since Title IX has passed, 
studies show that girls are still significantly less likely than boys 
to participate. What are the factors that continue to inhibit girls' 
participation in sports? We must find the answer to this question and 
continue shaping new opportunities for women and girls by upholding 
current Title IX policies. As we increase our knowledge of women's 
participation in sports, we also broaden our understanding of their 
opportunity in school and the workplace.
    I look forward to hearing from the witnesses.

                                  <all>

</pre></body></html>
